<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2005</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2005

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [The following testimonies were received by the 
Subcommittee on Homeland Security for inclusion in the record. 
The submitted materials relate to the fiscal year 2005 budget 
request for programs within the subcommittee's jurisdiction.]

     Prepared Statement of the Association of American Universities

    Mr. Chairman, Members of the Subcommittee: I am pleased to have 
this opportunity to present the views of the Association of American 
Universities (AAU) concerning the fiscal year 2005 budget proposal for 
the Department of Homeland Security Science and Technology (S&T) 
Directorate. AAU is an organization of 62 leading public and private 
research universities.
    Let me begin by thanking Chairman Cochran, Ranking Member Byrd, and 
members of the subcommittee for their efforts last year in helping the 
new Department of Homeland Security (DHS) get up and running. I would 
especially like to thank them for their recognition of the role that 
universities can play in helping the Department fulfill its mission and 
for your strong support of the university programs within the DHS S&T 
Directorate. You all have done the nation a great service, and your 
work to ensure the security of our homeland is very much appreciated.
AAU Urges Strong Support of Homeland Security S&T
    AAU supports the $1.039 billion proposed in the President's fiscal 
year 2005 budget request for the DHS S&T Directorate. The primary 
interest of the university community continues to be with DHS 
University Programs, which support the DHS scholarship, fellowship, and 
university center programs. AAU requests $70 million for DHS university 
programs in fiscal year 2005, the same level approved by Congress in 
fiscal year 2004. This is $40 million more than the President's fiscal 
year 2005 request.
    AAU recommends that this additional $40 million be used to support 
new DHS university-based centers and other innovative university-based 
research programs. This is consistent with AAU's view that DHS S&T 
programs should focus not only on the development of technologies with 
near-term applications but also on helping generate the fundamental 
knowledge, cutting-edge science, and human infrastructure needed to 
meet the nation's future homeland security needs. AAU also supports 
funding for S&T staffing and administration at a level that allows the 
directorate to ensure that S&T funds are awarded to projects fairly and 
competitively, based on scientific and technical merit.
The Role of Universities in Homeland Security
    There are several reasons why AAU believes that continued strong 
support for university research and training is needed and can greatly 
assist the Department of Homeland Security. Let me briefly highlight 
three of them:
    Long-Term University-Based Research is Critical to Homeland 
Defense.--Science and engineering research conducted on university 
campuses is the foundation for many of the technologies now being 
deployed to prevent, detect, and treat victims of chemical, biological, 
radiological, nuclear and conventional terrorist attacks. As with 
university-based basic and applied defense research programs, 
fundamental knowledge and research generated at universities will serve 
as the ``seed corn'' from which future homeland security technologies 
will grow.
    Universities Are an Important Resource in the Domestic War on 
Terror.--University medical facilities and personnel were critical in 
providing medical care and emergency response services after the 
September 11, 2001, attacks in New York City and Washington D.C. When 
the anthrax attacks occurred on Capitol Hill, university researchers 
were called on to help Americans better understand the threat posed by 
biological agents and to provide critical information that enabled 
federal agencies and Congress to respond effectively.
    University researchers are actively exploring new methods to 
safeguard the nation, including detection of, and response to, domestic 
biological, chemical, nuclear, and radiological attacks; risk 
assessment; cybersecurity; protection of critical infrastructure; and 
developing a better understanding of the behaviors and motivations of 
those who engage in terrorist activities.
    Universities Are Leading Homeland Security Training and 
Coordination.--Universities continue to work with government officials 
at all levels, industry and non-profit leaders, and first-responders to 
develop coherent, effective homeland security strategies. Colleges and 
universities are also developing new programs to train first responders 
and educate students to address current and future homeland security 
challenges.
Conclusion
    Let me conclude by saying that in addition to being able to assist 
the Department of Homeland Security in fulfilling its science and 
technology and training objectives, AAU and its member universities are 
working to ensure safety and security on university campuses. This 
includes compliance with the new biological and select agent 
regulations and efforts to help ensure that new systems to track 
foreign students--as required by law--are in place. AAU urges that in 
addition to providing funding for homeland security S&T, Congress and 
the Administration provide adequate funding to support university 
efforts to respond to these new requirements for campus-based homeland 
security. With your support, and working together, the nation's 
research universities will be able to continue to help fight terrorism 
and ensure domestic security.
    Again, I appreciate your ongoing work in support of homeland 
security. Thank you for the opportunity to submit testimony. Please let 
me know should you have any questions.
                                 ______
                                 

  Prepared Statement of the American Public Transportation Association

    Mr. Chairman, thank you for this opportunity to submit written 
testimony on the security and safety of public transportation systems. 
We appreciate your interest in transportation security, and we look 
forward to working with you as you develop the fiscal year 2005 
appropriations bill for the Department of Homeland Security.

                               ABOUT APTA

    The American Public Transportation Association (APTA) is a 
nonprofit international association of over 1,500 public and private 
member organizations including transit systems and commuter rail 
operators; planning, design, construction, and finance firms; product 
and service providers; academic institutions; transit associations and 
State departments of transportation. APTA members serve the public 
interest by providing safe, efficient, and economical transit services 
and products. Over ninety percent of persons using public 
transportation in the United States and Canada are served by APTA 
member systems.

                                OVERVIEW

    Mr. Chairman, public transportation is one of our Nation's critical 
infrastructures. We cannot over emphasize the importance of our 
industry to the economic vitality of this country. Over 9.5 billion 
transit trips are taken annually on all modes of transit service. 
People use public transportation vehicles over 32 million times each 
weekday. This is more than 16 times the number of daily travelers 
aboard the Nation's airlines, and 450 times the number of travelers on 
Amtrak.
    The American people rightfully expect that they can travel to work, 
school, and any destination on public transit without fearing for their 
safety and security. Our industry is fully engaged in meeting this 
responsibility. However, the American people, and we also require the 
full support of the Federal Government to effectively address this 
challenge.
    America's public transportation services are by design and 
necessity an open environment. Safety and security are thus the top 
priority of the public transportation industry. Transit systems took 
many steps to improve security prior to the horrific terrorist attacks 
of September 11, 2001, and have significantly increased efforts since 
then by spending approximately $1.7 billion on security and emergency 
preparedness programs and technology. These expenditures have been made 
from local transit agency's own budgets with minimal Federal funding. 
Recent terrorist attacks in Madrid only highlight the need to 
strengthen security on public transit systems and to do so without 
delay.
    In a recent APTA survey transit systems identified both capital and 
operating actions that would enhance transit security; transit agencies 
around the country have identified in excess of $6 billion in transit 
security needs. State and local governments and transit agencies are 
doing what they can to improve security, but it is important that the 
Federal Government be a full partner in the effort to ensure the 
security of the Nation's tens of millions of transit users.
    We urge the Congress to act decisively on this issue. In light of 
the documented needs, we respectfully request Congress to provide $2 
billion in the fiscal year 2005 Homeland Security Appropriations bill 
for transit security. Of that amount, we suggest that $1.2 billion be 
provided for capital needs such as improved inter-operable radio 
communications, strengthening access control to facilities, and 
establishing emergency operations control centers, and that $800 
million be provided for security related operating costs, including 
threat assessments, planning, public awareness, training, and drills.
    We further request that the existing process for distributing 
Office of Domestic Preparedness (ODP) Federal grant funding be modified 
so that funds are distributed directly to transit agencies as was done 
in fiscal year 2003, rather than through State Administrating Agencies 
(SAA) as was done in fiscal year 2004.

                     PUBLIC TRANSPORTATION SECURITY

    Mr. Chairman, transit employees are on the front line in our 
Nation's effort against terrorism. They are the first responder 
evacuation teams who will assist in getting the public out of critical 
incident areas and our cities in the event of a terrorist attack. This 
was evident on September 11, 2001, when public transportation systems 
in New York City, New Jersey and Washington D.C. helped safely evacuate 
citizens from center cities. Indeed, this same story was true around 
the country as transit systems quickly and efficiently evacuated people 
from closed airports and downtown areas. We remember that the 
interstate highway program was begun by President Eisenhower as a 
national defense interstate highway program. It is clear now that 
public transportation too has a significant national defense component 
and is a fundamental element in responding to terrorist attacks and 
other community disasters and emergencies.
    In that connection, APTA has played a critical role in 
transportation security and works closely with a number of Federal 
agencies in this regard, notably the Federal Transit Administration 
(FTA) and the Federal Railroad Administration of the U.S. Department of 
Transportation, and the Transportation Security Administration (TSA), 
the Office of Domestic Preparedness (ODP), and the Directorate of 
Information Analysis & Infrastructure Protection of the U.S. Department 
of Homeland Security. At the program level, APTA works closely with 
these agencies to administer an industry audit program that oversees a 
system safety and security management plan for transit systems around 
the country. Our safety audit program for commuter rail, bus, and rail 
transit operations has been in place for many years and includes 
elements specific to security planning and emergency preparedness. 
Separately, in connection with Presidential Decision Directive Number 
63, we are pleased to have been designated a Public Transportation 
Sector Coordinator by the Department of Transportation, and as my 
testimony notes below, we have established a Transit Information 
Sharing Analysis Center (ISAC) that provides a secure two-way reporting 
and analysis structure for the transmission of critical alerts and 
advisories to transit agencies around the country. This ISAC is also a 
mechanism for transit agencies to provide information to the DHS.
    Since the events of 9/11, State and local public transit agencies, 
like all State and local entities, have spent significant sums on 
police overtime, enhanced planning and training exercises, and capital 
improvements related to security. As mentioned in the overview, a 2004 
APTA survey of transit agencies around the country has identified in 
excess of $6 billion in added transit security needs. These include 
both one-time capital investments and recurring operating expenses 
related to security. It is important to note that these costs are above 
and beyond the capital infrastructure needs we have identified under 
the TEA 21 reauthorization effort.

                               BACKGROUND

    Mr. Chairman, prior to and following September 11, 2001, the date 
of the most devastating terrorist attack in U.S. history, American 
public transportation agencies have taken significant measures to 
emphasize their security and emergency preparedness to adjust to 
society's new State of concern. Although agencies had a wide range of 
security initiatives in place at the time of the World Trade Center and 
Pentagon attacks and already had developed emergency response plans, 
the September 11 incidents caused the agencies to focus, strengthen, 
and prioritize additional security efforts.
    Transit agencies have had an excellent safety record and have 
worked for years to enhance their system security and employee security 
training, partly responding to government standards, APTA guidelines, 
and by learning through the attacks on transit agencies abroad. For 
example, the 1995 sarin gas attack in the Tokyo subway system caused 
U.S. transit properties managing tunnels and underground transit 
stations to go on high alert. The San Francisco Bay Area Rapid Transit 
District, for instance, responded to the possible threat of chemical 
weapons attacks by sending a police team to Fort McClellan, Alabama, to 
learn response tactics from U.S. Army chemical weapons experts.
    In the months following the September 11 terrorist attacks, transit 
agencies of all sizes worked to identify where they might be vulnerable 
to attacks and increased their security spending for both operations 
and capital costs. The agencies subsequently upgraded and strengthened 
their emergency response and security plans and procedures, taking 
steps to protect transit infrastructure and patrons and increase 
transit security presence while giving riders a sense of security.
    Some initiatives around the country include:
  --Increased surveillance via closed circuit TV
  --Increased training for employees
  --Hired more police, K-9 units added
  --Chemical detection systems being tested
  --Infrastructure design to eliminate hiding places
  --Drills are routinely held with first responders
  --Encouraging riders to be vigilant for suspicious activities or 
        items.
    After September 11, many transit organizations worked to prevent 
unauthorized entry into transit facilities. The need for employees and 
passengers to stay alert and report suspicious occurrences became a key 
goal of many agencies. These efforts are paying off. But while many 
transit agencies are more secure than prior to September 11, more needs 
to be done.
    Since the attacks, APTA and the Federal Transit Administration have 
emphasized the need for effective transit security and emergency 
preparedness. FTA has sent security resources toolkits to transit 
agencies; completed security-vulnerability assessments of the Nation's 
largest transit systems; and provided technical support and grants of 
up to $50,000 to fund agency emergency drills.
    FTA continues to provide emergency preparedness and security forums 
nationwide. In emphasizing the importance of enhancing transit 
security, FTA Administrator Jennifer L. Dorn noted that thousands of 
lives were spared on September 11 in New York City and Washington 
``because of the quick action of first responders and transit 
workers.''
    APTA has launched additional efforts to further transit industry 
security and preparedness, collaborating with FTA in developing 
emergency preparedness forums, and sponsoring and organizing security-
related conferences and workshops. Moreover, APTA developed a list of 
critical safety and security needs faced by the transit industry, which 
it has provided to the Department of Transportation and the U.S. 
Congress.

    PUBLIC TRANSPORTATION INFORMATION SHARING ANALYSIS CENTER (ISAC)

    Presidential Decision Directive Number 63 authorizes and encourages 
national critical infrastructures to develop and maintain ISACs as a 
means of strengthening security and protection against cyber and 
operations attacks. APTA is pleased to have been designated a Public 
Transportation Sector Coordinator by the U.S. Department of 
Transportation, and in that capacity has received a $1.2 million grant 
from the Federal Transit Administration to establish a transit ISAC. 
APTA recently formalized an agreement with a private company to 
implement the ISAC and make it available to public transit systems 
around the country.
    This ISAC for public transit provides a secure two-way reporting 
and analysis structure for the transmission of critical alerts and 
advisories as well as the collection, analysis and dissemination of 
security information from transit agencies. The public transit ISAC 
also provides a critical linkage between the transit industry, the U.S. 
Department of Transportation, the Transportation Security 
Administration, and the Office of Homeland Security. A request for 
funding to continue this ISAC has been submitted to the Department of 
Homeland Security's Directorate of Information Analysis & 
Infrastructure Protection.

                   ONGOING TRANSIT SECURITY PROGRAMS

    Mr. Chairman, while transit agencies have moved to a heightened 
level of security alertness, the leadership of APTA has been actively 
working with its strategic partners to develop a practical plan to 
address our industry's security and emergency preparedness needs. 
Shortly after the September 11 events, the APTA Executive Committee 
established a Security Task Force under the leadership of Washington 
Metro's CEO, Richard A. White. The APTA Security Task Force has 
established a security strategic plan that prioritizes direction for 
our initiatives. Among those initiatives, the Task Force serves as the 
steering group for determining security projects that are being 
implemented through over $2 million in Transit Cooperative Research 
funding through the Transportation Research Board.
    Through this funding, APTA held four transit security workshop 
forums for the larger transit systems with potentially greater risk 
exposure. These workshops provided confidential settings to enable 
sharing of security practices and applying methodologies to various 
scenarios. The outcomes from these workshops were made available in a 
controlled and confidential format to other transit agencies unable to 
attend the workshops. The workshops were held in New York, San 
Francisco, Atlanta, and Chicago.
    In partnerships with the Transportation Research Board, the APTA 
Security Task Force has also established two TCRP Panels that 
identified and initiated specific projects developed to address 
Preparedness/Detection/Response to Incidents and Prevention and 
Mitigation. The Security Task Force emphasized the importance for the 
research projects to be operationally practical.
    In addition to the TCRP funded efforts, a generic Checklist For 
Transit Agency Review Of Emergency Response Planning And System Review 
has been developed by APTA as a resource tool and is available on the 
APTA website. Also through the direction of the Security Task Force, 
APTA has reached out to other organizations and international 
transportation associations to formally engage in sharing information 
on our respective security programs and directions and to continually 
work towards raising the bar of safety and security effectiveness.
    Within this concept of partnership and outreach, APTA also 
continues in its ongoing collaboration with the Federal Transit 
Administration to help in guiding and developing FTA programs. Among 
these are regional Emergency Preparedness and Security Planning 
Workshops that are currently being delivered through the Volpe Center 
and have been provided in numerous regions throughout the United 
States. The primary focus of such workshops has been to assist 
particularly smaller transit systems in building effective emergency 
response plans with first responders and their regional offices of 
emergency management. Also within this partnership, APTA has assisted 
the FTA and the National Transit Institute in the design of a new 
program ``Security Awareness Training for Frontline Employees and 
Supervisors.'' This program is now being provided by NTI to transit 
agencies throughout the Nation.
    Collaborative efforts between APTA, FTA, Volpe Center, and the 
National Transit Institute are also underway to establish a joint 
website that will specifically gather and disseminate effective transit 
practices with initial emphasis on safety and security.
    As you may be aware, APTA has a long-established Safety Audit 
Program for Commuter Rail, Bus, and Rail Transit Operations. Within the 
scope of these programs are specific elements pertaining to Emergency 
Response Planning and Training as well as Security Planning. In keeping 
with our industry's increased emphasis on these areas, the APTA Safety 
Audit Programs have similarly been modified to place added attention to 
these critical elements.
    APTA's Committee on Public Safety continues to provide a most 
critical forum for transit security professionals to meet and share 
information, experiences and programs and to also provide valuable 
input to programs being developed by the FTA.

                       SECURITY INVESTMENT NEEDS

    Mr. Chairman, after the awful events of 9/11, the transit industry 
invested some $1.7 billion in enhanced security measures building on 
the industry's considerable efforts already in place. At the same time, 
our industry undertook a comprehensive review to determine how we could 
build upon our existing industry security practices. This included a 
range of activities, some of which I discussed earlier in my testimony, 
including research, best practices, education, information sharing in 
the industry, surveys and the like. As a result of those efforts we are 
now at a phase where we know what we can most effectively do in terms 
of creating a more secure environment for our riders and have 
accordingly identified critical security investment needs.
    Our latest survey of public transportation security identified 
needs of at least $5.2 billion in additional capital funding to 
maintain, modernize, and expand transit system security functions to 
meet increased security demands. Over $800 million annually for 
increased operating costs for security personnel, training, technical 
support, and research and development have been identified, bringing 
total additional transit security funding needs to more than $6 
billion.
    Responding transit agencies were asked to prioritize the uses for 
which they required additional Federal investment for security needs. 
Priority examples of operational needs include:
  --Funding current and additional transit agency and local law 
        enforcement personnel
  --Funding for over-time costs and extra security personnel during 
        heightened alert levels
  --Training for security personnel
  --Joint transit/law enforcement training
  --Security planning activities
  --Security training for other transit personnel
    Priority examples of security capital investment needs include:
  --Radio communications systems, including operational control center 
        redundancy
  --Security cameras on-board transit vehicles and in transit stations
  --Controlling access to transit facilities and secure areas
  --Automated vehicle locator systems
  --Security fencing around facilities
    Transit agencies with large rail operations also reported a 
priority need for Federal capital funding for intrusion detection 
devices.
    To date the DHS has allocated some $115 million for public 
transportation security through its Office of Domestic Preparedness. 
While we appreciate this support from the Department, we must build on 
those initial investments and begin to address the $6 billion in 
critical needs the transit industry has identified. We believe that a 
funding level of $2 billion in the fiscal year 2005 Homeland Security 
Appropriations bill would effectively begin the process of funding 
those needs. Of that amount, we suggest that $1.2 billion be provided 
for transit capital needs, and that $800 million be provided for 
transit agencies for operating costs.
    The Administration's fiscal year 2005 budget, however, does not 
specifically call for investment in public transportation security. We 
think it should. Currently ODP grants for transit systems are made 
available through the States, which means that our transit systems do 
not have a direct relationship with DHS, and which also means that the 
process of getting the funds to the local transit systems can be 
lengthy. Mr. Chairman, our Nation's transit systems have a direct and 
cooperative working relationship with DOT's Federal Transit 
Administration which allocates Federal capital investment directly to 
them, and we believe this is an excellent model that we would like to 
see developed with the DHS. We stand ready to help in any way we can in 
that regard.

                               CONCLUSION

    Mr. Chairman, in light of our Nation's heightened security concerns 
post 9/11, and the bombings in Madrid, tens of millions of Americans 
relying on public transportation expect the services they use to be 
made more secure. Increased Federal investment in public transportation 
security by the Congress and DHS is critical. The public transportation 
industry has made great strides in transit security improvements since 
9/11 but much more needs to be done. We look forward to building on our 
cooperative working relationship with Congress and the Department of 
Homeland Security to begin to address these needs. We again thank you 
and the Committee for allowing us to submit testimony on these critical 
issues and look forward to working with you on safety and security 
issues.
                                 ______
                                 

  Prepared Statement of the Association of State Dam Safety Officials

    Dear Chairman Cochran and Members of the Subcommittee: The 
Association of State Dam Safety Officials (ASDSO) is pleased to offer 
testimony on the President's proposed fiscal year 2005 budget for the 
Department of Homeland Security.
    The Association of State Dam Safety Officials respectfully requests 
that the Subcommittee increase the Administration's proposed budget of 
$5.9 million to $8.6 million to fully fund the National Dam Safety 
Program at its authorized level for fiscal year 2005. The Association 
further requests that these funds be earmarked for the sole purpose of 
carrying out mandates authorized in the National Dam Safety and 
Security Act of 2002.
    The Association of State Dam Safety Officials is a national 
organization of more than 2,200 state, Federal and local dam safety 
professionals and private sector individuals dedicated to improving dam 
safety through research, education and technology transfer. ASDSO 
represents the 50 state dam safety programs, as the state dam safety 
officials are the governing body of the Association. Our goal is simply 
to save lives, prevent property damage and to maintain the many 
benefits of dams by preventing dam failures.
    During the 1970s this country suffered devastating dam failures 
that caused tragic loss of life and enormous property damage; and 
focused national attention on the catastrophic consequences of dam 
failures. Those historic failures and recent dam failures serve as a 
constant reminder that dams must always be properly constructed, 
properly designed and properly operated and maintained to provide vital 
benefits and prevent failures.
    Today our focus in not only on the safety of dams related to 
maintenance issues but on security as the Nation faces a significant 
challenge to protect our infrastructure from terrorist attacks. 
Protection of U.S. dams is a major concern and focus of national 
strategic planning efforts within the Department of Homeland Security.

National Dam Safety Program
    The National Dam Safety Program Act of 1996 (Public Law 104-303) 
created the first national program that focused on improving the safety 
of the Nation's dams. Congress reauthorized the program through the Dam 
Safety and Security Act of 2002 (Public Law 107-310) and made modest 
increases in the authorized funds. This small, yet critical program 
provides much needed assistance to the state dam safety programs in the 
form of grant assistance, training and research; and through 
facilitating the exchange of technical information between Federal dam 
safety partners and the states. The program provides $6 million in 
grant assistance to states based on the relative number of dams in each 
state. The grants may be utilized to best suit the individual state's 
needs. In addition, the National Dam Safety Program provides $500,000 
each year to be used for training of state dam safety engineers and 
$1.5 million annually for research. These research funds are used to 
identify more effective methods of evaluating the safety of dams and 
more efficient techniques to repair dams. And now, these research funds 
can be used to develop better methods to assess and improve the 
security of dams.
    There are over 79,000 dams in the United States, but the 
responsibility of assuring their safety falls on the shoulders of the 
states, as they regulate 95 percent of the country's dams. Because of 
limited staff and limited funding, most states are overwhelmed by that 
challenge. Table 1 attached to this testimony provides state-by-state 
data on the number of dams, the number of staff, the state budget and 
the number of dams that are considered ``unsafe.'' Unsafe means that 
they have identified deficiencies that make the dam more susceptible to 
failure, which may be triggered by a large storm event, an earthquake 
or simply through inadequate maintenance. Currently states have 
identified over 3,300 dams as being deficient, or unsafe. In Kentucky 
the state lists 88 unsafe dams including 36 that are classified as high 
hazard potential. In Pennsylvania there are 531 unsafe dams and 98 of 
these are classified as high hazard potential.
    There are over 10,000 dams classified as high hazard potential 
meaning that the consequences of the dam's failure will likely include 
loss of human life and significant downstream property damage. Every 
member of this Subcommittee has high hazard dams in their home state. 
There are 217 high hazard potential dams in Kentucky, 861 high hazard 
potential dams in Texas and 1,027 high hazard potential dams in North 
Carolina. According to the National Inventory of Dams more than 53 
percent of the high hazard potential dams have not been inspected in 
the last ten years. High hazard potential dams should be inspected 
every year.
    The task for state dam safety programs is staggering; in Iowa where 
there are over 3,300 dams there are only 1.25 full time employees 
assigned to the dam safety program. Texas has over 8,000 dams with only 
5 engineers in their dam safety program; and Minnesota, which has 
almost 1,000 dams, only has a staff of 2.1 full time employees
    The American Society of Civil Engineers' 2003 Progress Report for 
America's Infrastructure listed a downward trend line indicating that 
the condition of the Nation's dams continues to decline. The dams 
across the United States are aging as 85 percent of the dams will be 50 
years or older by the year 2020.
    Downstream development within the dam failure flood zone places 
more people at risk. When homes are built in the dam failure flood zone 
below a low hazard dam, (low hazard: failure is not expected to cause 
loss of life or significant property damage) the dam no longer meets 
dam safety criteria as the potential consequences of a failure now 
include loss of life.

Federal Leadership Role
    There is a clear need for continued Federal leadership to provide 
assistance in support of dam safety. This country suffered several 
large and tragic dam failures in the 1970s that focused attention on 
dams and prompted Congress to pass national dam safety legislation. In 
1972, the Buffalo Creek Dam in West Virginia failed and killed 125 
individuals; in 1976 the Teton Dam failure in Idaho caused $1 billion 
in damages and 14 deaths; the Kelly Barnes Dam in Toccao Falls, Georgia 
failed in 1977 killing 39 Bible college students; also in 1977 40 
people died from the failure of the Laurel Run Dam in Pennsylvania; and 
in 1996 the 38 foot tall Meadow Pond Dam in Alton, New Hampshire failed 
killing one woman and causing $8 million in damage.
    However, the recent failure of the Silver Lake Dam in Michigan in 
May 2003 again demonstrated the enormous potential damages that dam 
failures can produce. This dam failure caused more than $100 million in 
damages including $10 million in damages to utilities, $4 million to 
the environment, $3 million to roads and bridges and flooded 20 homes 
and businesses. In addition, the Silver Lake Dam failure flooded a 
major power plant, which in turn caused the closure of two iron mines, 
putting 1,100 miners temporarily out of work.
    Just last month on March 12, 2004, the Big Bay Lake Dam in 
Mississippi failed destroying 48 homes, damaging 53 homes, 2 churches, 
three businesses and a fire station and washing out a bridge. This dam, 
which cost $2.5 million to construct, has caused many millions in 
damages, will require downstream homeowners and businesses to rebuild, 
caused significant loss of property values around the lake and has 
resulted in $100 million lawsuit filed against the dam owner on behalf 
of the homeowners.
    Dam failures do not respect state boundaries, as a dam failure in 
one state may cause loss of life and property damage in an adjacent 
state. The Federal Government funds the recovery costs from the 
President's disaster relief fund and through the Flood Insurance 
Program, but the cost of one small dam failure can easily exceed the 
annual costs of the National Dam Safety Program. Full funding of the 
National Dam Safety Program is an investment in public safety that will 
be repaid many times over in fewer dam failures, reduced Federal 
expenditures for dam failure recovery and, most importantly, fewer 
lives lost.

Benefits of the National Dam Safety Program
    The National Dam Safety Program has been very successful in 
assisting the state programs. The training program is created is one 
aspect of this success ($500,000). This training provides access to 
technical courses and workshops that states engineers could not 
otherwise attend. Examples include Dambreak Analysis, Concrete 
Rehabilitation of Dams, Slope Stability of Dams, Earthquake Analysis, 
Emergency Action Planning and many others including recent training in 
Dam Site Security. Training courses are also offered through FEMA's 
training facility at their Emergency Management Institute in Maryland 
where state dam safety inspectors receive training at no cost to the 
states.
    The Research Program is an important program to all within the dam 
safety community. Its funds have been used to identify future research 
needs such as inspections using ground penetrating radar or risk 
analysis. In addition, these funds have been used to create a national 
library and database of dam failures and dam statistics at the National 
Performance of Dams Program at Stanford University as well as a 
national clearinghouse and library of dam safety bibliographic data at 
ASDSO.
    Research funds are currently being used to provide security 
training, security assessment tools and best management practices for 
states to utilize in addressing potential terrorists actions against 
the 75,000 non-Federal dams. The small increase ($500,000) in the 
funding levels authorized by the 2002 act was intended to address dam 
site security. Dam site security is now an urgent area of concern for 
state dam safety officials both in training needs and in research to 
better understand and respond to potential threats to dams.
    The most valuable benefit to the state programs comes from the 
State Grant Assistance Program. The grants are based on the number of 
dams in each of the participating states and are used as an incentive 
to encourage states to improve their program by meeting basic criteria 
such as:
  --State statutory authority to conduct inspections of dams;
  --State authority to require repairs to unsafe dams; or
  --State policies that address dam site security at non-Federal dams.
    Use of these grants is left up to the state's discretion as each 
state has its own unique challenges. States have utilized grant funds 
to perform dam failure and dam stability analyses, to hire additional 
staff to conduct inspections and to conduct owner education workshops. 
In addition, grant funds have enabled states to provide additional 
staff training, and to purchase equipment such as computers, field 
survey equipment and software, and remote operated cameras for internal 
inspections.
    As we begin to realize the benefits of the grant assistance 
program, dam safety inspections have increased and so has the number of 
Emergency Action Plans, used to notify and evacuate downstream 
populations in the event of a failure, it is disappointing to see that 
appropriations over the past 2 years are well below the authorized 
levels. They have remained at the previous level of $5.9 million. 
Despite the increase in funding approved by Congress in the Dam Safety 
and Security Act of 2002 to $8.6 million, the states have not realized 
any increase in assistance. Moreover, budget reductions at have further 
reduced the state grant assistance funds by almost 22 percent.
    Table 2, attached to this testimony, provides information on the 
amount of state grant assistance received for each state, the potential 
grant funding if fully funded at authorized levels and the grant amount 
each state will lose as a result of the reduced funding. The lost 
grants come at a difficult time when development below dams creates 
more high hazard potential dams, dams continue to age and, now, 
security issues must be addressed by the states.

Dam Security of Non-Federal Dams
    The horrific events of September 11, 2001 have focused 
unprecedented attention on the security of our Nation's critical 
infrastructure, including dams. Dams, in fact, have been identified by 
intelligence and law enforcement agencies in specific threat alerts. 
Federal agencies that own dams, such as the U.S. Army Corps of 
Engineers and the Bureau of Reclamation, have been conducting 
vulnerability assessments and security improvements on these Federally 
owned dams. However, little has been provided by the Federal Government 
in leadership or assistance to the states who have similar and equally 
urgent dam security demands.
    Security experts advise that it is very difficult to make a site 
completely safe from intentional acts of terror. They offer that their 
goal is to enhance security and effectively deter a potential attack at 
a site so that the terrorist will seek another site with less security. 
The improved security at federally owned dams makes non-Federal dams 
more attractive targets. There are clearly thousands of non-Federal 
dams that are potential targets based on type of construction, size, 
purpose (water supply, hydro power, flood control); and on the 
population and infrastructure at risk below the dam. Federal leadership 
is urgently needed to provide technical and financial assistance to 
states for training, for conducting vulnerability assessments and for 
identifying and implementing security improvements on dams determined 
to have an inadequate security program.

Conclusion
    Dams are a vital part of our aging national infrastructure that 
provide many vital benefits, but that also pose a threat to life and 
property if they fail. The National Dam Safety Program is a valuable 
program that offers assistance to states as an investment in public 
safety. One dam failure alone, as evidenced by the Silver Lake Dam 
failure in 2003, can easily exceed the $8.6 million authorized for this 
program. The National Dam Safety Program, administered by FEMA, is a 
modest and prudent investment protecting public safety.
    Therefore, the Association of State Dam Safety Officials 
respectfully requests that this Subcommittee increase the 
Administration's proposed funding for the National Dam Safety Program 
from $5.9 million to the full authorized level of $8.6 million; and 
further earmark these funds to be used only for the National Dam Safety 
Program in the Department of Homeland Security.
    Thank you Mr. Chairman and Members of the Subcommittee for this 
opportunity offer this testimony. The Association looks forward to 
working with you and the Subcommittee staff on this important issue of 
safe dams.

                                    TABLE 1.--ASSOCIATION OF STATE DAM SAFETY OFFICIALS--STATE-BY-STATE STATISTICS ON DAMS AND STATE SAFETY REGULATION--2004
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                              Total Dams in    Dams Under State Regulation         State-Determined Deficient Dams \3\       State Dam Safety     State Staff Dedicated to Dam
                                                National                   \2\              ------------------------------------------------  Budget (<greek-          Safety Regulation
                   State                      Inventory \1\ --------------------------------                                                   e> thousand)   ----------------------------------
                                               (2002 NID)         Total            HH             Total            HH              SH                              Total FTEs      Dams Per FTE
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Alabama \4\................................           2,102               0             171              NA  ..............  ..............              $0                 0                 NA
Alaska.....................................             104              82              16              NR  ..............  ..............             105.5               1                 82
Arizona....................................             328             251              85              58              44              14             570.0               8                 31
Arkansas...................................           1,225             407             102              24              22               1             331.0               4.6               88
California.................................           1,471           1,225             335              57               2              26           7,800.0              61                 20
Colorado...................................           1,684           1,879             327             220              35              52           1,400.0              12                157
Connecticut \4\............................             720           2,000             236              12              NR              NR             472.0               4.3              465
Delaware \4\...............................              61              98               9              NR  ..............  ..............              NR                NR                 NR
Florida....................................             724         \4\ 778         \4\ 100             >20              NR              NR              NR                NR                 NR
Georgia \4\................................           4,470           3,412             399             105              NR              NR             682.0              10                341
Hawaii \4\.................................             122             129              56               0               0               0             135.0               2                 65
Idaho \4\..................................             393             439             106              NR  ..............  ..............             350.0               7.5               59
Illinois...................................           1,456           1,326             173             >22              13               9             345.0               5.5              241
Indiana....................................           1,069           1,129             238              NR  ..............  ..............             340.0               5                226
Iowa.......................................           3,249           3,303              74              16               8               7              55.0               1.25           2,642
Kansas.....................................           5,634           5,890             192              23              13              10             271.0               7.58             777
Kentucky...................................           1,051           1,002             175              88              36              35           1,600.0              14                 72
Louisiana..................................             357             465              13              17               1               3              NR                 9                 52
Maine......................................             641             843          \4\ 26              68               7              35          \4\ 46.0               1.5              562
Maryland...................................             291             355              63              10               1               5             416.6               5.5               65
Massachusetts..............................           1,490           2,917             333              40              22              18             500.0               4                729
Michigan...................................             943           1,039              80              18               3               7              NR                 4.8              216
Minnesota..................................             986           1,442              40             250               2              20             250.0               2.1              687
Mississippi................................           3,315           3,594             282              NR  ..............  ..............             137.8               4.5              799
Missouri...................................           4,854             640             445              15              11               4             192.9               4                160
Montana....................................           2,885           2,874             101             >11              11              NR             330.0               5.25             547
Nebraska...................................           2,179           2,173             113             130               7              48             289.0               5.67             383
Nevada.....................................             469             599             128             >29               5               4              NR                 2.25             266
New Hampshire..............................             645             838              86             590              63             159             612.0               7                120
New Jersey.................................             792           1,680             194             567              50             317           1,251.0              18                 93
New Mexico.................................             375             390             156              61              38              14             450.0               6                 65
New York \4\...............................            1964           5,021             380             >54              NR              NR             746.0               6.3              797
North Carolina.............................            2723           4,638           1,027             >61              NR              NR             902.0              17                273
North Dakota...............................             685           1,758              20              19               5              11             200.0               4.5              391
Ohio.......................................           1,325           1,727             462              NR  ..............  ..............           1,020.0              11                157
Oklahoma...................................           4,610           4,485             184               5               3               1             185.0               1.8            2,492
Oregon \4\.................................             820           3,733             122               0               0               0             255.0               3.1            1,204
Pennsylvania...............................           1,442           3,044             770             531              98              23           2,039.0              24                127
Puerto Rico................................              34              36              34               0               0               0             600.0               8                  5
Rhode Island...............................             185             565              16               0               0               0              99.6               1.2              471
South Carolina.............................           2,447           2,312             153               3              NR              NR              NR                 4.5              514
South Dakota...............................           2,377           2,328              47              >3               3              NR              NR                 2.5              931
Tennessee..................................           1,051             638             148               5               3               1             275.0               7                 91
Texas......................................           7,025           8,133             861              NR  ..............  ..............             300.0               5              1,627
Utah.......................................             752             649             192              82              82              NR             460.0               7                 93
Vermont....................................             354             538              55              NR  ..............  ..............             215.0               2.2              245
Virginia...................................           1,586             521             112              54              31              13             475.6               7                 74
Washington.................................             832             933             135              32              13              14             550.0               6.5              144
West Virginia..............................             543             362             266              38              35               3             454.5               6                 60
Wisconsin..................................           1,097           3,748             243              NR  ..............  ..............             487.0               6.25             600
Wyoming....................................           1,335           1,374              76               3               0               1             142.1               5.09             270
                                            ----------------------------------------------------------------------------------------------------------------------------------------------------
      TOTAL................................          79,272          89,742          10,157          >3,341             645             837          28,337.6             359.24         20,576
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Includes dams of any size that are likely to pose a significant threat to human life or property in case of failure, and all other Federal and non-Federal dams > 25 high that impound > 15
  acre feet; and dams > 6 high that impound > 50 acre-feet.
\2\ Estimated number of all dams under state regulatory control.
\3\ Dams with identified deficiencies by state definition (varies state to state) derived from state inventory in column 2.
\4\ 2003 data
NR-Not Reporting. Some states do not keep data on these categories.

  Prepared Statement of the Association of State Floodplain Managers, 
                                  Inc.

    The Association of State Floodplain Managers, Inc. (ASFPM) is 
pleased to share comments on four specific aspects of the fiscal year 
2005 budget proposal for the Department of Homeland Security, Emergency 
Preparedness and Response Directorate (FEMA):
  --Restoration of 15 percent formula for Hazard Mitigation Grant 
        Program funding;
  --Protection of NFIP funds from transfer for other purposes;
  --Support for continued funding for modernization of flood maps;
  --Urge increase in NFIP Community Assistance Program funds for state 
        technical assistance;
  --Urge appropriation of funds to address the NFIP's repetitive loss 
        problem, given imminently pending authorizing legislation; and
  --Continue to retain a separate account for the Flood Mitigation 
        Assistance Program.
  --Monitor how the Department of Homeland Security addresses natural 
        hazards and mitigation.
    The Association of State Floodplain Managers, Inc. and its 19 state 
chapters represent over 6,500 State, local, and private sector 
officials as well as other professionals who are engaged in all aspects 
of floodplain management and hazard mitigation. All are concerned with 
reducing our Nation's flood-related losses and reducing the costs of 
flooding.

 RESTORATION OF 15 PERCENT FORMULA FOR HAZARD MITIGATION GRANT PROGRAM

    ASFPM urges restoration of the 15 percent formula used to determine 
amounts made available post-disaster for the Hazard Mitigation Grant 
Program (HMGP) authorized by the Stafford Act as Section 404. States 
across the country have evidence that the most effective time to garner 
support for mitigation projects is in the aftermath of disasters. While 
mitigation planning is a vital activity to identify hazards and 
potential risks, only actual damaging events generate significant 
public interest and State and local financial support. The fact is that 
most cities, counties and towns across the country have many immediate 
and pressing financial needs. Regardless of the statistical evidence of 
the likelihood of future disaster occurrence, communities will not 
place mitigation higher than today's demands for education, social 
programs, local first responders, and the like. This is especially true 
in smaller communities where financial resources are always tight.
    On the proverbial ``sunny day,'' flooding is a low priority for the 
millions of homeowners and business owners in the Nation's flood hazard 
areas--regardless of the mounting evidence that future floods will 
occur. Homeowners and business owners view offers for buyouts, 
elevations, and retrofit floodproofing very differently when they are 
shoveling mud, coping with toxic mold, or faced with collapsed 
foundations. Restoring HMGP to the 15 percent formula will provide 
resources to those who have just experienced damage and are most 
receptive to change.
    Pre-disaster funding should be directed to community-based planning 
in order to prepare communities to undertake mitigation projects when 
the disaster strikes. It would also be reasonable to make pre-disaster 
mitigation funds available to support public projects that address at-
risk State and community buildings and public infrastructure--among the 
more costly categories of public disaster assistance. These projects, 
which do not require direct and voluntary participation of property 
owners, can readily be designed and implemented in the pre-disaster 
context and provide broad public benefits.
  --ASFPM urges the Subcommittee to restore the Hazard Mitigation Grant 
        Program formula to 15 percent of certain Federal disaster 
        expenditures. The Disaster Mitigation Assistance Act of 2000 
        calls for communities to have pre-disaster local mitigation 
        plans in order to access HMGP. One result of this requirement 
        is that communities will be better prepared to identify 
        eligible activities after the next declared disaster, thus 
        further shortening the time needed to obligate and expend the 
        HMGP funds.
  --ASFPM recommends that the Subcommittee fully investigate the 
        implications of the nationwide pre-disaster program funded in 
        fiscal year 2003. Initiated in 2002 as a pilot program, the 
        pre-disaster mitigation program was not, as originally 
        intended, evaluated prior to authorization of PDM in the 
        Disaster Mitigation Action of 2000. Particular attention should 
        be paid to citizen, community and State receptivity to 
        mitigation offers and how the ability to provide the non-
        Federal cost share differs in the pre- and post-disaster 
        periods. Another critical aspect to attend to is whether and 
        how FEMA balanced different hazards, different geographic 
        areas, and communities of different sizes and capabilities.

          PROTECT NFIP FUNDS FROM TRANSFER FOR OTHER PURPOSES

    The National Flood Insurance Program (NFIP) collects premiums and 
policy service fees from just 4.4 million flood insurance 
policyholders. These funds are authorized for specific purposes 
directly related to administration of the NFIP. Certain Federal 
employees are supported by these funds, as are such activities as the 
Flood Mitigation Assistance grant program, grants to States to provide 
technical assistance to local governments, and flood mapping. Because 
these funds are not general taxpayer funds, it is vital that they are 
used only for the specific purposes for which they are collected.
  --ASFPM urges the Subcommittee to require DHS to disclose funds 
        collected from NFIP policyholders that have been transferred 
        for other purposes. We further urge the Subcommittee to 
        prohibit the transfer of NFIP funds, and funds authorized and 
        appropriated for the Map Modernization Initiative, for other 
        purposes by DHS.
  --ASFPM urges the Subcommittee to require DHS to report on the use of 
        certain NFIP funds to support Federal employees, specifically, 
        the number of such positions, where they are located, how many 
        are vacant and for what period of time, and how those specific 
        positions directly support the NFIP.

              CONTINUE SUPPORT FOR FLOOD MAP MODERNIZATION

    Good flood maps play a major role in disaster cost reduction 
through wise floodplain management and are use for many purposes beyond 
the immediate needs of the National Flood Insurance Program. FEMA 
estimates that local regulation of flood hazard areas, using the flood 
maps, avoids property losses of over $1 billion each year. FEMA's 
estimate does not count the benefits associated with using the maps to 
guide development to less hazard-prone areas. Flood maps yield benefits 
at all levels of government, including reducing the need for Federal 
disaster assistance when people build elsewhere or build to minimize 
damage.
    Initiated with the fiscal year 2003 appropriation of $200 million 
for the multi-year Flood Map Modernization effort, FEMA and States will 
use current technologies to expedite cost-effective collection of 
mapping data and to develop the models to identify flood-prone areas. 
This will yield digitized map products that will be accessible on the 
Internet and reduce future costs associated with ongoing map revisions 
and updates.
  --ASFPM strongly endorses the Administration's request for $200 
        million and urges the Subcommittee to request that FEMA report 
        on technical partnerships that are forming with States and 
        communities, incentives offered to foster those partnerships, 
        and to revisit the time and cost estimates for completion of 
        the initiative.
  --ASFPM urges the Subcommittee to express its expectation that FEMA 
        will address State-identified priorities and that quality data 
        and quality maps are the objective--rather than focus only on 
        the quantity or the average age of maps. High quality products 
        also serve as incentives and justification for investment of 
        State and local funds.

 INCREASE NFIP COMMUNITY ASSISTANCE PROGRAM FUNDS FOR STATE TECHNICAL 
                               ASSISTANCE

    The Community Assistance Program (CAP), funded by 4.4 million NFIP 
flood insurance policyholders, provides small, cost-shared grants that 
provide partial support of State floodplain programs that, in turn, 
provide technical assistance to nearly 20,000 local jurisdictions that 
administer the NFIP's minimum floodplain management regulations. CAP is 
critical because the best way to limit increases in future flood damage 
is to build State capability to work with and train local officials to 
ensure that developers comply with the rules and post-flood recovery is 
undertaken properly. FEMA's staff is too small to provide this vital 
assistance to nearly every community in the country, thus the 
partnership with States was established. In 1995, CAP was funded at 
$4.2 million which, even then, was insufficient to establish adequate 
capacity in every State.
    Currently, CAP stands at $7 million. Although the increased funding 
has improved state capacity and capability to meet the demand, the 
increased workload of state floodplain management offices has far 
outstripped the increased funding. The increased state workload is due 
to the following factors: more demand for technical assistance and 
training of local officials; nationwide emphasis on pre- and post-
disaster planning and coordination; more communities participating in 
the NFIP; significant increases in the number of properties insured by 
the NFIP; and decreases in FEMA staff, which shifts even more 
programmatic responsibilities to the States. Importantly, the FEMA Map 
Modernization program is generating extreme demands for assistance and 
coordination (implementation is expected to last at least 7 years). It 
is reasonable to predict that Map Modernization program alone will 
necessitate at least one additional full time employee in each State 
floodplain management office, which would require approximately $3.75 
million.
  --ASFPM urges increasing CAP funding to $10 million in order to 
        increase the technical assistance and training the states 
        provide to the 20,000 communities in the NFIP as FEMA's 
        partners, and to successfully implement the Map Modernization 
        Program.

   EXPECT AUTHORIZATION TO ADDRESS THE NFIP'S REPETITIVE LOSS PROBLEM

    The National Flood Insurance Program's authorization is due to 
expire on June 30, 2004. On November 20, 2003, the House of 
Representatives passed the Flood Insurance Reform Act of 2003 (HR 253) 
and the Senate Subcommittee on Economic Policy recently marked up the 
companion bill (S. 2238). FEMA has characterized the disproportionate 
amount of claims paid on a very small percentage of NFIP-insured 
properties as the most significant factor that drives increases in the 
cost of flood insurance. Having more flood-prone homes and businesses 
insured by the NFIP is an effective way to reduce the Federal burden of 
disaster assistance.
    Both the House and Senate bills authorize augmentation of the 
existing Flood Mitigation Assistance grant programs to focus on 
repetitive loss problem, and both bills authorize the transfer of funds 
from the National Flood Insurance Fund (generated by premium and fee 
income). The Flood Mitigation Assistance program is mature, with 
virtually all states currently active to some degree, therefore new 
funds can be used immediately. Because the NFIP must be reauthorized 
and extended before June 30, 2004, action on the bills is expected 
before work on appropriations is completed.
  --ASFPM requests that the Subcommittee monitor progress on the Flood 
        Insurance Reform Act of 2004. If the S. 2238 passes prior to 
        final action on the fiscal year 2005 budget, ASFPM urges the 
        Subcommittee to include in the fiscal year 2005 budget the 
        authorized transfer of funds from the National Flood Insurance 
        Fund to the National Flood Mitigation Fund.
  --Continue to Retain A Separate Account for the Flood Mitigation 
        Assistance Program
    The ASFPM appreciates direction in the fiscal year 2004 
appropriations that FEMA maintain the Flood Mitigation Assistance 
Program (FMA) funds separate from other mitigation funds. FMA was 
authorized by the National Flood Insurance Reform Act of 1994, which 
also created the National Flood Mitigation Fund as a separate account. 
FMA is not supported with general funds, but is funded entirely by a 
portion of the service fee collected from the 4.4 million flood 
insurance policies. Therefore, the ASFPM is concerned with the 
Administration's proposal to combine FMA funds with other mitigation 
funds, even to achieve accounting efficiencies. To ensure 
accountability to the policyholders and to ensure that these funds are 
used only for the explicit purposes authorized, the FMA funds are best 
kept separate. In particular, how FMA is administered must not be 
changed. FMA is specifically intended to support cost containment for 
the NFIP, in part by addressing the problem characterized as repetitive 
losses, but also to mitigate against severe flood damage and imminent 
threats due to coastal erosion.
  --ASFPM urges the Subcommittee to clarify--again--that Flood 
        Mitigation Assistance Program funds in the National Flood 
        Mitigation Fund are not to be co-mingled with pre-disaster 
        mitigation funds.

   MONITOR HOW THE DEPARTMENT OF HOMELAND SECURITY ADDRESSES NATURAL 
                         HAZARDS AND MITIGATION

    Millions of Americans are at risk--every day--of experiencing 
floods, tornados, earthquakes, hurricanes, wildfires, severe winter 
storms, and other natural hazards. From a broad perspective, ASFPM is 
disturbed that the Department of Homeland Security has deliberately 
diminished focus on natural hazards. Despite continued verbal 
assertions of commitment to FEMA's all-hazards mission, DHS has reduced 
cohesiveness of programs and reduced staff who deal with hazards and 
mitigation. The following are specific concerns: transferring FEMA 
funds to areas of DHS that are not under the jurisdiction of the Under 
Secretary for Emergency Preparedness & Response; detailing FEMA staff 
out of that directorate; and reducing support for the vital network of 
State and local public safety and disaster mitigation officials.
  --ASFPM urges the Subcommittee to monitor DHS proposals and actions 
        that affect FEMA programs and staff to prevent unwise and 
        unnecessary reduction in FEMA's effectiveness, which in turn 
        will jeopardize State and local efforts to deal with natural 
        hazards and mitigation.
                                 ______
                                 

   Prepared Statement of the International Association of Emergency 
                                Managers

    Chairman Cochran, Ranking Member Byrd, and distinguished members of 
the Subcommittee, thank you for this opportunity to provide a statement 
for the record regarding the fiscal year 2005 budget proposal for the 
Department of Homeland Security.
    My name is Daryl Lee Spiewak, and I am the emergency programs 
manager for the Brazos River Authority in Waco, Texas. I am a certified 
emergency manager, a certified Texas emergency manager, and a Texas 
certified floodplain manager. I currently serve as the President of the 
International Association of Emergency Managers (IAEM). Our over 2,000 
members include emergency management professionals at the State and 
local government levels, the military, private business and the 
nonprofit sector in the United States and in other countries. Most of 
our members are city and county emergency managers who perform the 
crucial function of coordinating and integrating the efforts at the 
local level to prepare for, mitigate the effects of, respond to, and 
recover from all types of disasters including terrorist attacks.
    We respectfully submit suggestions on two particular issues 
relating to the Department of Homeland Security budget for 2005.
Emergency Management Performance Grants (EMPG)
  --Reject administration request to cap at 25 percent amount which can 
        be used for personnel.
  --Request that the funding cut be rejected and the amount increased.
  --Request the program retain all hazards emphasis, including 
        terrorism.
  --Urge that funding be specifically designated in the Appropriations 
        Bill and maintained as a separate account.
Hazard Mitigation Grant Program (HMGP)
  --Urge the Committee to return the funding level to 15 percent of 
        certain eligible disaster costs.
    In addition, we would like to offer our support for the 
Administration's request for $200 million to continue the Map 
Modernization program and for the $150 million request to continue the 
PreDisaster Mitigation program.

Emergency Management Performance Grants
    The Emergency Management Performance Grants (EMPG) are pass-through 
funds to State and local emergency management offices to provide a 
foundation for basic emergency preparedness and response capabilities. 
Congressional report language has referred to the program as ``the 
backbone of the Nation's emergency management system.'' This funding 
has existed in the past under several different names such as the 
Emergency Management Assistance Program and State and Local Assistance 
Program which were actually more appropriate names. This program is 
different from most grants, in that it is a continuing program with 
deliverables and requirements which must be met in order to receive 
funding the following year.
    We very much appreciated the support of the House and Senate 
Appropriations Committees for EMPG in the fiscal year 2004 Department 
of Homeland Security Appropriations Bill. Congress specifically 
designated funds in a separate account, increased the amount from the 
fiscal year 2002 level to $179 million; specifically indicated the 
funds could continue to be used for personnel costs and supported the 
all hazards approach. The House Report recognized that ``State and 
local emergency managers rely on these funds for a variety of expenses, 
but predominately for personnel who plan, train, coordinate, and 
conduct exercises and other functions essential to effective 
preparedness, mitigation, response, and recovery efforts.''
    Reject Cap on Expenditures for Personnel.--Since the purpose of the 
program is to provide support for State and local emergency management 
personnel, the Administration's request to cap the amount of funds 
which can be used for personnel at 25 percent of each grant is 
puzzling. Since the functions of emergency management are almost 100 
percent personnel driven, such as planning, coordinating, exercise 
design, training, and public education, the effect of the 25 percent 
cap would be devastating. States have estimated that this cap would 
result in potential losses of up to 60 percent of their emergency 
management staff. In some localities it would result in the elimination 
of whole programs. We would be cutting capacity at the very time we 
need to be building capacity.
    Perhaps to put this proposed cap in perspective one could consider 
the effect on the functioning of a Congressional office or a 
Congressional Committee if directions were given to only spend 25 
percent of the funds received for running the offices on personnel and 
administrative costs.
    Reject Funding Cut and Increase Funding.--Historically, funding for 
EMPG has been inadequate. The program was intended to be 50 percent 
Federal and 50 percent State or local funding. Currently many 
jurisdictions receive 20 percent or less. Some jurisdictions do not 
receive any EMPG monies due to inadequate funding levels. State and 
local emergency management programs are in desperate need of financial 
support if they are to continue to meet the requirements of all hazard 
planning and coordination as well as implement the President's homeland 
security strategy in States, counties, cities and neighborhoods across 
America. The new security concerns arising from the current world 
situation make the coordination and unifying role served by emergency 
managers more important than ever. Given continued support and funding, 
emergency managers have the skills, the expertise, and the willingness 
to rise to the planning and coordinating challenges presented by the 
full range of hazards affecting their communities.
    We respectfully request that the $9 million reduction in the 
President's request be rejected and that the funding be increased. A 
2004 study by the National Emergency Management Association (NEMA) 
indicates that at the 50-50 shared cost level there is a $245 million 
shortfall.
    Maintain the All Hazards Approach.--Legislative language is 
included in the Administration's 2005 request giving ``priority to 
homeland security activities.'' The simple fact is that almost all 
emergency management activity creates a generic capacity to deal with 
crises. For nearly 50 years, the Federal Government has provided 
funding assistance to State and local governments to support a 
comprehensive national emergency management system. During that time, 
the Federal emphasis has shifted on numerous occasions and our members 
have adjusted programs accordingly. There is no doubt that ``homeland 
security'' (currently, although we believe, incorrectly, defined as 
terrorism) has priority today, but the proposed language certainly has 
the potential to limit the ability of the emergency management system 
to adjust to changes in the future and is therefore problematic.

Hazard Mitigation Grant Program
    Restore Hazard Mitigation Grant Program (HMGP) to 15 percent. The 
Hazard Mitigation Grant Program in the Emergency Preparedness and 
Response Directorate provides post disaster mitigation funding. The 
program is authorized in Section 404 of the Robert T. Stafford Disaster 
Relief and Emergency Assistance Act (Public Law 93-288) and the monies 
are provided from the President's Disaster Relief Fund. We appreciate 
the House and Senate Appropriations Committees retaining the program 
rather than terminating it as requested in the Administration's Budget 
requests in fiscal year 2003 and fiscal year 2004. However, the fiscal 
year 2003 Omnibus Appropriations bill changed the formula used to 
determine hazard mitigation funding from 15 percent to 7.5 percent of 
eligible disaster costs. In order to reduce future disaster costs, 
commitments must be made to both pre-disaster and post disaster 
mitigation. Citizens and elected officials are most receptive to 
undertaking projects and initiatives that reduce the impacts of future 
disasters immediately after a disaster has occurred. Without the HMGP 
funding, those opportunities will be missed.
    The House unanimously passed H.R. 3181 in November of 2003 which 
would have restored the funding to 15 percent. This bill is pending in 
the Senate Environment and Public Works Committee and at this time it 
is not known if action will be completed given the limited time left in 
this legislative session. We, therefore, urge that the HMGP program be 
restored to 15 percent.

Flood map Modernization and PreDisaster Mitigation
    IAEM supports the Administration's request for $200 million for 
flood map modernization. Flood maps play a key role in disaster 
reduction, mitigation, and community planning and development 
activities. Many of the flood maps in place are 15 to 30 years old and 
do not reflect recent development and may contain inaccurate 
information about the floodplains as a result. FEMA estimated the cost 
of a multi-year map modernization plan at $750 million over a 7-year 
period. We support this multi-year effort.
    IAEM supports the Administration's request for $150 million for 
predisaster mitigation. We believe that both predisaster and post 
disaster funds are important for reducing future disaster costs. We 
support administrative funds being available to FEMA to administer the 
program and urge that FEMA review and streamline the application 
process.
    Thank you for giving us the opportunity to provide this testimony. 
We would welcome the opportunity to provide additional information to 
the Subcommittee.
                                 ______
                                 

  Prepared Statement of the National Emergency Management Association

Introduction
    Thank you Chairman Cochran, Ranking Member Byrd, and distinguished 
members of the Committee for allowing me the opportunity to provide you 
with a statement for the record on the Department of Homeland Security 
(DHS) fiscal year 2005 budget. I am Edward F. Jacoby, Jr., President of 
the National Emergency Management Association and Director of the New 
York State Emergency Management Office. In my statement, I am 
representing the National Emergency Management Association (NEMA), 
whose members are the state emergency management directors in the 50 
States and the U.S. territories. NEMA's members are responsible to 
their governors for emergency preparedness, homeland security, 
mitigation, response, and recovery activities for natural, man-made, 
and terrorist caused disasters.
    At this time, the Department of Homeland Security has been in place 
for over a year and the state of emergency management in our Nation is 
of grave concern. Each day, State and local governments are responding 
to natural and man-made disasters, the threat of terrorism remains 
elevated while fortunately, actual terrorism incidents remain sporadic 
on U.S. soil. The multi-hazards emergency system continues to be the 
means to practice and exercise for devastating acts of terrorism, while 
at the same time preparing the Nation for hurricanes, tornadoes, 
hazardous materials spills, and floods. Yet, all-hazards preparedness 
may be a thing of the past as more focus is being placed on terrorism. 
We must ensure that our capability to deal with many hazards, including 
terrorism remains intact and that we do not shift our focus to 
preparedness for a single peril.
    The capability to coordinate an effective response to an event does 
not change by the type of disaster. The all-hazards approach relies 
upon the maintenance of plans, trained personnel to carry them out, and 
supporting infrastructure in the form of emergency operations 
facilities with inter-operable communications. We must continue this 
approach in practicing and exercising for devastating acts of 
terrorism, as well as day-to-day emergencies. We cannot afford to lose 
the system we have in place to deal with all disasters in order to 
build new infrastructure for homeland security's sake.
    The Department of Homeland Security budget provides critical 
support to State and local emergency management programs through actual 
dollars, grants, and program support. This year, NEMA would like to 
address three main issues with the proposed Federal budget for 
Department of Homeland Security.
  --Extreme concern for the 25 percent cap on personnel use and the cut 
        to the Emergency Management Performance Grant (EMPG) program;
  --Support for continuing and enhancing the Homeland Security Grants, 
        which must be coordinated and managed through the States; and
  --Concern about the reduced formula for the post-disaster Hazard 
        Mitigation Grant Program (HMGP).

              EMERGENCY MANAGEMENT INFRASTRUCTURE FUNDING

    The Emergency Management Performance Grant (EMPG) is the single 
all-hazards emergency preparedness grant program in support of capacity 
building at the State and local level. While the State and local 
government partnership with the Federal Government to ensure 
preparedness dates back to the civil defense era, increased 
responsibilities over the last decade have fallen on State and local 
governments. With the recent expanded focus on terrorism and the 
increased demands of the Federal Government to assist in the National 
Strategy for Homeland Security, EMPG is the vital source of funding to 
assist State and local governments in ensuring that the infrastructure 
is in place to address all of the traditional hazards that threaten 
communities--including terrorism.
    More than any other intergovernmental program, emergency management 
and disaster response are a joint and shared responsibility among all 
levels of government. The increase or decrease in resources for one 
level has a direct impact on the other partners. For example, a 
decrease in the capability of local governments to respond to any 
disaster automatically passes the burden of cost and long-term 
redevelopment activities to the State, and then to the Federal 
Government. Unfortunately, the consequences of such policies are much 
more significant in terms of the effects of disasters on our citizens 
and communities. The inability to respond to life-threatening 
emergencies by the local government cannot be replaced by efforts at 
the State and Federal levels. Likewise, the basic elements of 
comprehensive emergency preparedness cannot be replaced by narrow 
program funding for homeland security efforts.
    The President's budget proposal will have a devastating impact on 
the Nation's emergency management system at the same time that 
responsibilities are increasing for new and emerging hazards. The 
proposal decreases funding for the EMPG program by $9 million, 
increases the focus on terrorism, and most destructively, the proposal 
imposes a 25 percent cap on personnel uses of the EMPG grants. Over the 
last 2 years, Congress has affirmed the importance of EMPG in 
appropriations bills in language addressing the significance of the 
program and increased the levels of funding for the program twice. 
Prior to these increases in fiscal year 2003 and 2004, the program had 
been straight lined for over a decade. NEMA is appreciative of 
Congress' recognition of the EMPG program, but this year we 
respectfully ask that Congress not only address the programs 
shortfalls, but maintain the EMPG multi-hazard approach and the 
program's flexibility to be used for personnel without arbitrary 
constraints.
    EMPG is the only all-hazards program that State and local 
governments can use to build their emergency management capacity. The 
grants can be used for personnel, planning, training, exercises, 
warning systems, emergency operations centers, public outreach, and 
interagency coordination. EMPG is a flexible program that allows State 
and local governments to tailor funds to address the specific risks and 
needs of their jurisdiction. While it is called a grant, EMPG is really 
a cost-share system which ties together the emergency management system 
of local, State, and Federal Governments. EMPG's modest Federal 
increases in 2003 and 2004 helped the program grow, but the program 
continues to be funded at greater levels by State and local 
governments. States are continuing to increase their out of pocket 
costs in order to ensure there is adequate funding for local programs. 
In fact, a 2004 NEMA study found that there is approximately a $245.9 
million shortfall in EMPG for all 50 States. This means that many 
communities that would like to implement a full-time, professional 
emergency management capability cannot do so because of shortfalls in 
Federal funding. Further, EMPG is primarily used as a pass-through 
program for local governments, so the shortfall affects our smallest 
localities that are often those most in need of emergency preparedness 
planning.
    Changing the focus of the program to terrorism could severely 
hamper the ability of State and local government capabilities to 
respond to a wide range of events with a higher likelihood of occurring 
such as natural disasters, non-traditional disasters like the Columbia 
Space Shuttle explosion, Mad Cow disease, West Nile virus, civil 
unrest, and hazardous material incidents. An increased homeland 
security focus must be viewed as an enhancement to our basic emergency 
management capacity. Success in building vigorous and robust 
capabilities for homeland security will be sabotaged by taking away the 
basic building blocks of the emergency management system. While 
terrorism is a major focus at this time, we must balance preparedness 
efforts by integrating terrorism as one of the many threats facing our 
Nation, rather than the current approach of making all other 
preparedness efforts a subset of terrorism. Further, Homeland Security 
Presidential Directive 8 States that, ``to the extent permitted by law, 
Federal preparedness assistance will be predicated on the adoption of 
statewide comprehensive all-hazards preparedness strategies.'' The all-
hazards approach cannot be dismissed based upon the assumption that one 
threat is greater and more significant than the other. After all, no 
one really has a crystal ball to predict what the next disaster or 
emergency may be. However, last year there were no terrorism disaster 
declarations and 56 major disaster declarations, 19 emergency 
declarations, and 46 fire suppressions declarations. Our system for 
day-to-day public safety and homeland security must be mutually 
supportive and nimble enough to address any hazard.
    The most significant attack on the way that emergency management 
functions in this country is the proposal to cap personnel costs for 
EMPG at 25 percent. The cap will result in immediate, near-term and 
long-term degradations in the Nation's ability to effectively address 
emergencies and disasters. Citizens and communities that handled 
emergencies locally may no longer be able to do so and the 
responsibility and costs will be passed to the next higher level of 
government. But the costs will be greater, more frequent, and more 
dramatic. A 2003 NEMA survey on EMPG found that 1,565.5 or 42.9 percent 
of state level full time positions are supported in part by EMPG funds. 
Eighty-three part-time state emergency management personnel are funded 
in part or entirely with EMPG funds. At the local level, 2,172 full-
time positions and 1,184 part-time positions are supported by EMPG. 
States are reporting to NEMA potential losses of up to 60 percent of 
their emergency management personnel should this arbitrary cap be 
imposed. A snap-shot of the impact in Mississippi shows that 75 percent 
of state emergency management personnel and 95 percent of local 
emergency management personnel are funded by the program and both 
programs would have to sustain significant cuts under the proposal. In 
West Virginia, the cap could cost the State 18 full-time employees from 
emergency management and 38 full-time employees in local positions for 
emergency management. While the Administration explains that this 
measure would allow for more training and exercises, we find it hard to 
understand how extra training and exercises could be accomplished with 
less man-power. Emergency management personnel, particularly at the 
local level, provide the coordination function for all disaster and 
emergency response. How can we expect the response to terrorism to be 
effective and efficient without proper coordination among responders?
    The Federal Government must continue the commitment to ensuring 
national security though all-hazard preparedness. Without adequate 
numbers of State and local personnel to operate the all-hazards 
emergency management system, the infrastructure used to prevent, 
prepare for, respond to, and recover from all disasters will collapse. 
Congress must affirm the intent of the program and also ensure 
predictable funding levels for the program.

                    HOMELAND SECURITY GRANT PROGRAM

    Congress has made significant attempts to ensure that the Homeland 
Security Grant Program is streamlined and provides greater flexibility. 
We appreciate the attention and funding that the Congress has given to 
ensuring emergency responders are adequately prepared for domestic 
terrorism threats. Emergency responders are better prepared today to 
face the various threats associated with terrorism because of the 
Federal commitment to address the war on terrorism that is being played 
out in our States, cities, and towns. States continue to take an all-
hazards approach to disaster preparedness as we have integrated our 
domestic preparedness efforts into the proven systems we already use 
for dealing with both man-made and natural disasters.

Funding Levels
    This year, we are concerned about the President's budget proposal 
for homeland security that would cut over $600 million in funding that 
has been dedicated to improving emergency responder preparedness for 
homeland security. The Federal Government must maintain its commitment 
to ensure that homeland security preparedness continues and the 
Constitutional responsibility to maintain a national defense is not 
compromised. Continuity of effort can only be maintained by State and 
local governments with adequate Federal support, especially when it 
deals with the front line emergency responders. Reductions in funding 
will immediately be translated into reductions in prevention, 
protection, and preparedness activities. We cannot afford to lose the 
strides that we have already made in protecting our country by limiting 
funding, where more is still necessary to achieve the objectives in the 
National Strategy for Homeland Security. The funding level must be 
appropriately increased to address areas where shortfalls exist. 
Further, continued or increased funding should not take away from 
traditional all-hazards capacity building programs for public safety, 
public health, and emergency management.

One Stop Shop for Grants Information
    The Congressionally created and appointed Advisory Panel to Assess 
Domestic Response Capabilities for Terrorism Involving Weapons of Mass 
Destruction (known as the Gilmore Commission) initially said a 
``Federal focal point and clearinghouse for related preparedness 
information and for directing State and local entities to appropriate 
Federal agencies is needed,'' in their first report to Congress on 
December 15, 1999. NEMA affirmed the notion of a single visible point 
of contact and coordination of information for State and local 
governments in the August 25, 2000 Resolution on States' Principles for 
a National Domestic Preparedness Strategy.

Congressional Legislation to Simplify the Grants Process
    As Congress considers legislation to address and reform the 
Homeland Security Grants, we ask that you take NEMA's suggestions into 
consideration. The suggestions include the following:
  --All efforts to increase emergency management capacity must be 
        coordinated through the states to ensure harmonization with the 
        state emergency operations plan, ensure equitable distribution 
        of resources, and to synthesize resources for intra-state and 
        inter-state mutual aid. Also, the Stafford Act, which governs 
        the way disaster assistance is allocated, successfully uses 
        States and Governors as the managers of Federal disaster relief 
        funds for local governments, which can become overwhelmed and 
        in need of assistance when disasters occur.
  --States understand the need to get funding quickly to the first 
        responders and have long coordinated statewide and regionally 
        to ensure adequate state assistance to local governments for 
        emergency preparedness and response;
  --Each State must have a base minimum level of funding to ensure the 
        capacity to respond to any event. Such capacity is necessary 
        for homeland security because of the changing nature of the 
        threat and also because of the importance our emergency system 
        places on mutual aid to respond to events;
  --Traditional emergency management capacity building programs like 
        EMPG must be continued as separate and distinct from the 
        homeland security grants programs;
  --Duplicative requirements in the grants process must be eliminated 
        and flexibility in the use of the grants must be enhanced; and
  --Federal streamlining is necessary to consolidate the Federal grant 
        application process for homeland security funds in order to 
        ensure that funding can be provided faster to first responders. 
        The current application submission, review, and approval 
        process is lengthy and should be reviewed for efficiency.

Fiscal Conditions and Match Requirements
    Further, because the war on terrorism is a national emergency and 
States and local governments continue to be in the toughest fiscal 
situations since the deep recession in the early 1980s, we must be wary 
of programs that would require significant matches. In fact, for local 
governments to meet the match would be even more difficult given their 
fiscal constraints. If a significant match is required, the application 
of this initiative will only go to those agencies and governments that 
can fiscally afford the match and not necessarily where the need is 
greatest. If a match is necessary, we would suggest that the match be 
non-fiscal or in the form of a deliverable as opposed to soft or hard 
dollars. We also recommend continuation of the current match 
requirements for Emergency Operations Centers enhancements of 75 
percent Federal and 25 percent State and local. Waivers may be a way 
for the Federal Government to also address the lack of capital for a 
match when State and local governments are experiencing fiscal 
distress.

Flexibility for Personnel to Manage the Program
    Greater flexibility to use some of the first responder grants for 
personnel both at the State and local level to manage the programs is 
critical to completing the preparedness mission. As an existing funding 
stream, EMPG is used in part to fund State and local staff to manage 
critical programs including the homeland security grants. The First 
Responder Grants should recognize that personnel are necessary to 
manage these programs, particularly when rigid deadlines are set for 
obligating millions of dollars and accountability is paramount. State 
and local government, emergency management, and responder organizations 
are already working at a maximum capacity within existing resources and 
need Federal support for more than the purchase of equipment. 
Flexibility based on strategic approaches should be the norm, not 
single-issue, narrowly focused grants.

Standards and Strategy
    NEMA has long supported the development of standards to ensure 
interoperability of equipment, communications, and training across 
State, regional, and local jurisdictions. In terms of establishing 
voluntary minimum standards for the terrorism preparedness programs of 
State and local governments, NEMA offers itself as a resource in this 
area. Our organization, along with other stakeholder groups such as the 
Federal Emergency Management Agency, International Association of 
Emergency Managers, National Governors' Association, National 
Association of Counties, International Association of Fire Chiefs, and 
others, has developed and implemented the Emergency Management 
Accreditation Program (EMAP). EMAP is a voluntary standards and 
accreditation program for State and local emergency management that is 
based on NFPA (National Fire Protection Association) 1,600 ``Standard 
for Disaster/Emergency Management and Business Continuity Operations'' 
(an ANSI or American National Standards Institute approved standard) 
and FEMA's Capability Assessment of Readiness (CAR). EMAP is currently 
conducting baseline capability assessments of all states, some of which 
are pursuing accreditation in conjunction with this initial assessment. 
The State of Florida and the District of Columbia were granted 
accreditation through the program. NEMA suggests that these standards 
already being collaboratively developed through EMAP be considered in 
the development of minimum standards for training, exercises and 
equipment. The EMAP baseline capability assessment process should also 
be considered as a model when considering changes or refinements to 
other assessment processes conducted by the Department of Homeland 
Security.
    Further, NEMA has called for a long-term strategy for our Nation's 
homeland security that becomes the ``roadmap'' for the future of our 
Nation on homeland security. Such an effort must define the ``new 
normalcy'' and also address what State and local governments must 
accomplish in order to be prepared for a homeland security event. NEMA 
sees a role for the Gilmore Commission or a similar body to undertake 
the development of such a National Long-Term Strategy for Homeland 
Security. Such an effort must include input from State and local 
stakeholders.

        HAZARD MITIGATION GRANT PROGRAM & PREDISASTER MITIGATION

    NEMA supports efforts by the Congress and the Administration to 
continue both pre- and post-disaster mitigation activities. The two-
pronged effort can help to address Federal costs towards disasters, 
because both programs can help to lower overall disaster costs. NEMA 
calls on Congress to reauthorize the predisaster mitigation program 
before December 31, 2004 and to also restore the post-disaster Hazard 
Mitigation Grant Program (HMGP) formula to 15 percent.
    Effective February 20, 2003, Congress changed the formula for post-
disaster mitigation grants from 15 percent to 7.5 percent. This change 
limits the availability of funds for post-disaster mitigation and 
prevents the lessons learned from disasters from being immediately 
incorporated into mitigation projects to prevent losses of life and 
destruction of property. As a result, State governments no longer can 
offer property buy-outs or other mitigation measures to as many 
disaster victims. The months immediately following disasters provide 
unique opportunities to efficiently incorporate risk reduction measures 
in a very cost-effective manner, in many cases lowering the overall 
cost of the project by leveraging other funding sources including 
insurance settlements. We ask that you restore the formula to 15 
percent this year in order to address mitigation needs.
    Some of the most vivid examples of projects that were not funded in 
fiscal year 2003 because of the formula reduction include HMGP projects 
from recent disasters. These properties and projects will remain 
vulnerable with continued risk in future disasters. Some of these 
include:
  --3 acquisitions, 7 elevations, and 7 flood proofing projects for 
        properties flooded during Hurricane Isabel and Tropical Storm 
        Henri in Delaware;
  --3 outdoor warning siren proposals, one acquisition project for 18 
        structures, and one stormwater handling system improvement 
        project as a result of a flood declaration in Kentucky;
  --over 88 families who were flood victims remain untouched by post-
        disaster mitigation in West Virginia because of the formula 
        change; and
  --over $18.5 million in projects resulting from Hurricane Isabel will 
        remain unfunded in Maryland as a result of the lack of post-
        disaster funds.
    The HMGP has proven to be a highly effective tool in steering 
communities toward risk reduction measures, in many cases breaking 
repetitive loss cycles that have cost other Federal disaster relief 
programs multiple times. Cost-benefit analysis is currently a 
requirement for predisaster mitigation programs. We must not lose these 
opportunities to initiate projects to enhance our communities and 
reduce future disaster costs.

                      EMERGENCY OPERATIONS CENTERS

    In fiscal year 2002, $56 million was appropriated to the Federal 
Emergency Management Agency to address Emergency Operations Centers 
(EOCs) improvements. EOCs are the coordination point for State and 
local government in the response and recovery of any disaster or 
incident. After September 11, 2001, NEMA's members saw an implicit and 
urgent need to upgrade the Nation's emergency infrastructure and to 
make it more redundant. After all, the New York City EOC was destroyed 
on that very day as it stood within the World Trade Center 7 Complex. 
The coordinated response effort of the NY State Emergency Management 
Office and the NY Office of Emergency Management was later moved to 
Pier 92 in New York City as a temporary EOC. However, losing the NYC 
EOC provided a valuable lesson to be learned by all States and 
localities on redundancy. The $56 million was allocated to states to 
begin the planning process to assess necessary infrastructure and 
security improvements and security measures to be taken. Since then no 
dedicated Federal funding has been provided for the implementation of 
these plans. Many State and local facilities are out of date; do not 
have the interoperable technology to coordinate with the Federal 
Government or among State and local levels; and lack adequate security 
features. Federal assistance is necessary to match State and local 
commitments to upgrade their EOCs as an integral part of the Nation's 
emergency response system. According to a 2003 NEMA survey, it is 
projected more tan $1.6 billion will be needed to construct and 
maintain State and local primary and alternate EOCS over the next 2 to 
5 years. This includes the costs to consistently upgrade equipment and 
software, train personnel, and conduct operations during emergency and 
non-emergency situations.

                               CONCLUSION

    As we continue to build national preparedness efforts through the 
Department of Homeland Security, we must not forget about the multi-
hazard approach to incident management and the role it plays in 
preventing the loss of life and devastation to our communities on a 
daily basis. We must be prudent and thoughtful in addressing homeland 
security enhancements to our exisiting emergency preparedness and 
response system. In this year's appropriations process Congress will 
make critical decisions that shape the future of emergency management 
in this country. As you begin your consideration, we ask you to 
recognize the importance of the EMPG program in building capacity 
through people at the State and local level. I thank you for the 
opportunity to testify on behalf of NEMA and appreciate your 
partnership.
                                 ______
                                 

   Prepared Statement of the National Flood Determination Association

    Mr. Chairman and members of the Subcommittee, The National Flood 
Determination Association (NFDA) strongly supports the $200 million 
requested in the President's most recent fiscal year 2005 budget for 
map modernization. NFDA is a national nonprofit organization comprised 
of flood determination companies, their vendors, re-sellers and other 
industry associates involved in the making, distributing and reselling 
of flood zone determinations.
    The flood zone determination industry is a key stakeholder in the 
map modernization initiative. By producing flood zone determinations 
for the lending industry to assist them with the compliance 
requirements of the National Flood Insurance Program (NFIP) and the 
National Flood Insurance Reform Act, NFDA recognizes accurate flood 
maps are an important part of compliance with requirements of the NFIP. 
Today, FEMA paper flood maps are the maps of record for compliance, and 
the flood zone determination industry is the single largest extensive 
user of the maps. In 2001 and 2002, our industry completed 24,507,632 
and 30,211,047 flood zone determinations respectively, related to newly 
originated loans for the mortgage industry. In addition, we completed 
another 5,472,532 and 4,906,743 determinations for the same years for 
loans we were tracking on behalf of lenders that were affected by map 
revisions.
    Map modernization is a positive initiative, not only for the flood 
zone determination industry, but for State and local communities as 
well. By employing state-of-the-art technology, such as Geographic 
Information Systems (GIS) and Geographic Positioning Systems (GPS), 
communities can map their flood risk digitally. As a result, the 
updated maps will be easier and more cost-efficient to update as 
conditions change. In addition, digital flood maps are dynamic visual 
tools for State and local officials, land-use planners, private 
businesses, environmental protection organizations and emergency 
management personnel to recognize and chart areas for future 
development and plan for public safety.
    NFDA has been given the opportunity to provide feedback on the 
current FEMA maps, most of which are greater than 10 years old, in an 
effort to improve the quality of the existing maps as well as create 
some standards for the new maps to be published. These technical 
mapping meetings provide a communication forum that enables the end 
users of the maps, FEMA, and its contractors to identify practical 
solutions to the daunting challenge of maintaining and enhancing the 
accuracy and quality of the FEMA maps.
    As a result of the success from the technical mapping meetings, 
NFDA strongly encourages map modernization representatives to establish 
an advisory committee comprised of stakeholders and FEMA and contractor 
representatives as a means of ensuring regular, consistent 
communication takes place regarding this initiative. In order for the 
new maps to be truly effective, it is critical to emphasize quality 
over quantity. The use of new flood studies to develop quality data 
rather than re-use of possibly out-of-date data is key to achieving 
truly accurate flood maps. Development of consistent mapping standards 
for all communities is also important. An advisory committee modeled on 
the technical mapping advisory council established for 5 years by the 
Flood Insurance Reform Act of 1994 would be able to review the metrics 
used for establishing standards, as well as make recommendations for 
enforcement of those standards in order to create and retain a quality 
product.
    As strong supporters of FEMA, the National Flood Determination 
Association also strongly supports reauthorizing the National Flood 
Insurance Program for 3 more years. Multi-year reauthorization is 
important to the prevention of a program lapse similar to the one that 
occurred in January of 2003 when the NFIP was unauthorized for 13 days.
    Additionally, NFDA asks that important programs such as the natural 
disaster programs remain within FEMA's jurisdiction. Removing such 
programs is a threat to FEMA's effectiveness, and it is important that 
FEMA is allowed to maintain its management without interruption.
    In closing, our association has been an avid supporter of FEMA and 
its map modernization initiative since its inception, and is pleased to 
offer our continued support in the future. As a part of that support, 
we ask that the Committee appropriate the $200 million requested for 
map modernization and reauthorize the NFIP for 3 more years.
                                 ______
                                 

      Prepared Statement of the National Treasury Employees Union

    Chairman Cochran, Ranking Member Byrd, distinguished members of the 
Subcommittee; I would like to thank the Subcommittee for the 
opportunity to comment on the fiscal year 2005 budget for the 
Department of Homeland Security (DHS) and specifically its impact on 
the DHS Bureau of Customs and Border Security (CBP).
    As President of the National Treasury Employees Union (NTEU), I 
have the honor of leading a union that represents over 13,000 Customs 
and Border Protection employees who are stationed at 307 ports-of-entry 
across the United States. Customs and Border Protection officers, 
canine enforcement officers, and import specialists make up our 
Nation's first line of defense in the wars on terrorism and drugs as 
well as the facilitation of lawful trade into the United States. In 
addition, legacy Customs personnel are responsible for ensuring 
compliance with import laws and regulations for over 40 Federal 
agencies, as well as stemming the flow of illegal contraband such as 
child pornography, illegal arms, weapons of mass destruction and 
laundered money.
    In 2003, legacy Customs Service employees seized over 2.2 million 
pounds of cocaine, heroin, marijuana and other illegal narcotics. 
Customs and Border Protection Officers also processed over 412 million 
travelers last year, including over 1 million cars and trucks. These 
numbers continue to grow annually. Over the last decade trade has 
increased by 137 percent. Legacy U.S. Customs Service personnel 
facilitate more trade, and interdict more drugs than any other agency 
within the Customs and Border Protection Bureau. The legacy Customs 
Service collects over $20 billion in revenue on over 26 million entries 
involving over $1.2 trillion in international trade every year. The 
legacy Customs Service also provides the Federal Government with its 
second largest source of revenue. Last year, the legacy Customs Service 
deposited over $24.7 billion into the U.S. Treasury.

                        FISCAL YEAR 2005 BUDGET

    The President's fiscal year 2005 budget requests a funding level of 
$40.2 billion for the Department of Homeland Security and from that 
total $6.2 billion is requested for the Bureau of Customs and Border 
Protection (CBP). The CBP includes the legacy inspection and border 
security personnel of the Customs Service, INS, Border Patrol and 
APHIS. The focus of the CBP is security at and in-between ports-of-
entry.
    Unfortunately, the President's request for the CBP represents a 
token increase from last year's appropriations for all of the agencies 
transferred into the CBP. NTEU believes that this recommendation is 
simply inadequate to meet the needs of Customs and other border 
security personnel, especially in light of their additional homeland 
security missions such as the Customs Trade Partnership Against 
Terrorism (C-TPAT), the Container Security Initiative (CSI), U.S. VISIT 
and the 24-Hour Rule that requires advanced transmission of accurate 
cargo manifest information to the CBP.
    In addition to annual appropriations, Customs also receives funds 
from a user fee account known as the COBRA account. This user fee 
account funds all inspectors' and canine enforcement officers' overtime 
pay as well as approximately 1,200 Customs positions across the 
country. The COBRA account is funded with user fees collected from air 
and sea passengers entering the United States (except from the 
Caribbean and Mexico), commercial vehicles, commercial vessels/barges 
and rail cars. The COBRA fund was recently reauthorized and now will 
expire on March 31, 2005. However, the President's fiscal year 2005 
budget does not address the future reauthorization of COBRA or the 
possible integration of the COBRA fees with other CBP user fees. The 
COBRA fund must continue to be reauthorized or Congress must 
appropriate additional funds to make up for the loss of the user fees 
in the future.
    Despite the increased threats of terrorism, the dramatic increases 
in trade resulting from NAFTA, and new drug smuggling challenges, CBP 
personnel has confronted its rapidly increasing trade workload and 
homeland security missions with relatively static staffing levels and 
resources. While staffing was increased in last year's supplemental and 
fiscal year 2004 appropriations, in the last 10 years, there simply 
have not been adequate increases in staffing and resource levels for 
inspectional personnel and import specialists to successfully conduct 
their missions. The events of September 11 brought attention to the 
fact that the Northern border, and especially the Nations' seaports, 
and the Southwest border are still in urgent need of additional 
personnel and resources.
    In fact, Customs' recent internal review of staffing, known as the 
Resource Allocation Model or R.A.M., shows that the Customs Service 
alone needed over 14,776 new hires just to fulfill its basic mission 
and that was before September 11. In addition, in 2001 the Patriot Act 
called for a tripling of the number of Northern Border personnel from 
the roughly 2,300 personnel who were on the border in the fall of 2001 
to 6,900 by the end of 2004, a number that DHS is far short of 
reaching. According to the testimony of Commissioner Robert Bonner 
before the 9/11 commission on January 28, 2004, the CBP currently has 
approximately 3,900 CBP personnel on the northern border.
    Traffic volume at U.S. land ports-of-entry has steadily increased 
as our shared borders with Mexico and Canada have become more open as a 
result of the NAFTA and other trade initiatives. The steady increase of 
commercial and non-commercial traffic has led to increased wait times 
at many land ports-of-entry, particularly those along the Southwest 
border. Wait times along the Southwest border can often extend to 45 
minutes or more during peak hours. Such lengthy delays can be both 
irritating and costly to businesses and the traveling public.
    The lack of resources at ports-of-entry is also a problem along the 
Northern Border and at seaports. Port security, largely overlooked in 
the Homeland Security Act, must also be a priority of this committee. 
The fiscal year 2005 budget provides only $50 million for port security 
grants as part of the Transportation Security Administration 
appropriation, a reduction of almost $100 million in grant money for 
ports from the President's fiscal year 2004 budget. Each year more than 
16 million containers arrive in the United States by ship, truck and 
rail. In the last 5 years alone, Customs has witnessed a 60 percent 
increase in trade entries processed, and this rate is expected to grow 
an average of 8 to 10 percent a year. Port security must remain a high 
priority for the Department of Homeland Security.
    With increased funding for resources, modern technologies, such as 
Vehicle and Cargo Inspection Systems (VACIS), which send gamma rays 
through the aluminum walls of shipping containers and vehicles to 
enable Customs inspectors to check for illegal drugs or weapons of mass 
destruction, as well as decreasing the amount of time shipping 
containers are out of the supply chain, could be acquired. Other 
technologies, such as portable contraband detectors (a.k.a. Busters), 
optical fiber scopes and laser range finders can be invaluable to 
Customs personnel protecting our borders from terrorists and illegal 
drugs. However, adequate and consistent funding for personnel to 
operate these technologies has not been forthcoming. On a daily basis, 
CBP officers are being tasked with additional anti-terrorism, trade, 
immigration, agriculture and drug smuggling initiatives with little 
increase in across the board staffing, leaving many ports of entry with 
too few personnel to successfully carry out all of the DHS mission 
priorities.

                          CBP PERSONNEL ISSUES

CBP Personnel Overtime Cap
    An aspect of the consolidation of legacy Customs, INS and APHIS 
inspectors into a single front-line border security position that needs 
to be addressed immediately by this subcommittee is the correction of 
the overtime cap language for all CBP employees. When legacy Customs 
employees joined together last March to form the Bureau of Customs and 
Border Protection, the Department and Congressional appropriators 
realized the differences in overtime systems between the various border 
agencies. Unfortunately, the fiscal year 2004 DHS Appropriations bill 
included a provision that, while intending to provide greater 
consistency in overtime earnings among the front line CBP workforce, 
has instead created additional problems for the CBP workforce, more 
specifically, legacy Customs personnel and the new CBP officers.
    Specifically, the fiscal year 2004 DHS Appropriations bill states 
that all CBP employees are subject to a $30,000 annual overtime cap 
(legacy Customs, INS, APHIS, & new CBP officers). However, the fiscal 
year 2004 appropriations language does not address COPRA (Customs 
Officer Pay Reform Act) overtime earnings for legacy Customs personnel 
and new CBP officers. The original language of the COPRA law included a 
$25,000 cap. However, for the past several years, the annual 
appropriations bills specifically amended COPRA to provide for an 
increase to $30,000 as an overtime cap. Unfortunately, this year's 
(fiscal year 2004) appropriation does not contain this amendment and 
has had the unintended effect of re-instituting a $25,000 cap for only 
those employees covered by COPRA (legacy Customs personnel and the new 
CBP officers).
    Commissioner Bonner is well aware of this problem, as he indicated 
in a November 2003 Commissioner's message to all CBP employees stating 
that, ``we believe that this disparity was not intentional and we have 
begun to take all necessary steps to correct it through the proper 
channels. At my direction, the CBP Office of Congressional Affairs is 
now working with the Department to address this inconsistency through a 
legislative correction.'' NTEU hopes that the Commissioner, working 
closely with the members of this subcommittee, can fix this situation 
both retroactively for legacy Customs employees this year and 
prospectively in the fiscal year 2005 DHS Appropriations bill.

FLETC 6 Day Training Issues
    On January 1, 2002, at the request of the Federal Law Enforcement 
Training Center (FLETC), the legacy U.S. Customs Service implemented a 
6-day a week training schedule for all basic training courses for 
Customs officers in order to accommodate the higher volume of employees 
being sent to FLETC as a result of the events of September 11.
    Unfortunately, as a result of the 6-day a week basic training 
schedule, the legacy U.S Customs Service, and now the Bureau of Customs 
and Border Protection (CBP) have refused to compensate legacy customs 
officers and the new CBP officers for their sixth day of basic training 
at FLETC. Legacy Customs officers and the new CBP officers receive no 
pay, either ``straight time'' or overtime pay for their work on the 
sixth day of basic training. While there may be disagreement as to what 
overtime system may be appropriate, it is outrageous that these 
employees are required to work 1 day a week for no pay at all.
    This inequity has become even more egregious for legacy Customs 
inspectors due to a recent decision of the Bureau of Immigration and 
Customs Enforcement (BICE), that authorized the retroactive payment of 
FLSA overtime to legacy immigration inspectors who, like legacy Customs 
officers had been assigned to a 6-day workweek while attending their 
basic training at FLETC since January 1, 2002. Again, by forcing 
hundreds of newly trained legacy Customs inspectors and new CBP 
officers to work a sixth day without any compensation while their 
legacy INS counterparts receive FLSA overtime is certain to hinder the 
esprit-de-corps and development of the Department of Homeland 
Security's ``One Face at the Border Initiative'' which has merged the 
legacy Customs and INS inspectional workforces into one border security 
position within DHS. The committee needs to work closely with DHS and 
the CBP bureau to immediately correct this training pay inequity for 
legacy Customs employees and the new CBP officers.

One Face at the Border
    As the subcommittee is aware, on September 2, 2003, Secretary Tom 
Ridge announced the creation of a new CBP officer position and the 
``One Face at the Border'' initiative. Under this plan, a new position, 
the Customs and Border Protection Officer (CBPO) would combine the 
duties of legacy inspectors from Customs, INS and APHIS into a single 
front-line border security position at the 307 official ports-of-entry 
across the United States.
    NTEU believes that combining the border protection responsibilities 
that were held by three highly-skilled specialists into a ``super 
inspector'' raises some serious concerns. Each of the job 
responsibilities from the three legacy inspection agencies is highly 
specialized and distinct. By utilizing one employee to perform all 
three primary and secondary inspection functions, will the agency lose 
the expertise that has made the United States border inspection 
personnel second to none?
    NTEU believes that the CBP officer position was created with the 
assumption that the basic skill sets for legacy Customs and INS 
inspectors are similar and NTEU would have to agree with this statement 
as far a primary inspection is concerned. However, it is in secondary 
inspections where expertise is needed. It is in secondary inspections 
where legacy Customs and INS experts ``drill down'' to seek the facts 
they have been trained to find.

CBP Officer Training
    Prior to the creation of the CBP officer position, legacy Customs 
inspectors received 9 to 12 weeks of intensive basic training on 
Customs Service rules and regulations alone. Now, the new CBP officer 
will receive only 14 weeks of training for all Customs, INS, and APHIS 
rules and regulations. Under the new CBP officer training guidelines, 
legacy inspectors currently on the border will be transitioning into 
the new position in the spring of this year by way of classroom 
training, CD-ROM computer teaching and on-the-job training. While the 
new training will lead to a broader knowledge of the INS, Customs and 
APHIS rules and regulations of entry for passengers and goods entering 
the United States, there is a concern as to whether it will provide the 
specialized expertise necessary to ensure the successful accomplishment 
of the critical missions of the Department of Homeland Security.
    Another aspect of the ``One Face at the Border'' initiative that 
needs more thorough scrutiny is the lack of details with regard to the 
secondary inspection process at ports of entry. Currently, legacy 
Customs and INS inspectors are ``cross-trained'' as to the most basic 
Customs and INS procedures for entry into the United States for 
passengers and goods. However, if a legacy Customs inspector is faced 
with a complicated visa entry situation at an airport or land border 
primary inspection station they have the ability to send the passenger 
to a more intensive secondary inspection where an experienced legacy 
INS inspector can make a determination as to the validity of a 
particular visa. It is unclear whether experts in visa issues or other 
specific Customs and INS border protection matters will continue to be 
readily available for secondary inspection. This issue is even more 
urgent in light of the fact that on January 5, 2004, DHS rolled out its 
new entry/exit visa processing system known as U.S. VISIT. Operating at 
115 airports and 14 seaports across the country, and eventually 
expanding to the 50 largest land border ports of entry by the end of 
2004, U.S. VISIT is currently being manned by only legacy INS 
inspectors because legacy Customs inspectors do not have the on the job 
experience to thoroughly determine the validity of a particular visa or 
passport. NTEU feels strongly that if border initiatives such as U.S. 
VISIT are to be successful, specific expertise must be maintained among 
the CBP officer ranks as it relates to Customs and INS regulations.

Law Enforcement Officer Status
    In addition, legislative action that would help to ensure the 
retention of Customs and other CBP personnel could include granting law 
enforcement status for legacy Customs Inspectors, Canine Enforcement 
Officers and other border security personnel in the CBP. For example, 
legacy Customs Service Inspectors and Canine Enforcement Officers 
continue to be the Nation's first line of defense against terrorism and 
the smuggling of illegal drugs and contraband at our borders and in our 
ports. Legacy Customs Service Inspectors have the authority to 
apprehend and detain those engaged in terrorism, drug smuggling and 
violations of other civil and criminal laws. Canine Enforcement 
Officers and Inspectors carry weapons, and at least 3 times a year they 
must qualify and maintain proficiency on a firearm range. Yet, they do 
not have law enforcement officer status. They are being denied the 
benefits given to other Federal employees who they have been working 
beside to keep our country safe. Legacy Customs employees face real 
dangers on a daily basis, granting them law enforcement officer status 
would be an appropriate and long overdue step in recognizing and 
retaining the Customs personnel who continue to protect our borders 
from terrorism and drugs. There currently is a bill before the House HR 
2442, which would grant law enforcement status to CBP personnel. 
Representative Filner introduced this bill and it currently has 101 
cosponsors. I would ask the members of this subcommittee to cosponsor 
this very important legislation.

DHS Proposed Personnel Regulations
    As the committee is aware, the Homeland Security Act of 2002 
authorized the Secretary of Homeland Security and the Director of OPM 
to develop new human resources (HR) systems for Federal employees in 
the Department of Homeland Security in the areas of pay, performance 
management, job classification, labor-management relations, and 
disciplinary matters. As part of the creation of the new DHS HR system, 
a design team composed of DHS managers and employees, HR experts from 
DHS and OPM, and representatives from the agency's three largest 
unions, including NTEU, were assembled to develop a wide range of HR 
options for consideration by Secretary Tom Ridge and OPM Director Kay 
Coles James who will develop the new DHS HR system.
    To support the effort to create the new DHS personnel system, the 
President's fiscal year 2005 budget provides the department with $102.5 
million to develop and implement a new performance-based pay system for 
DHS personnel including funding for a pay for performance pilot program 
within the Coast Guard. NTEU is strongly opposed to the $102.5 million 
requested in the President's budget to fund the implementation of this 
ill-conceived program and believes that this funding would be better 
spent by this committee on additional staffing and equipment to protect 
or borders from terrorism.
    As a member of the DHS Human Resources Design Team NTEU has always 
strongly advocated that in designing pay, classification and 
performance management systems for DHS, that the principles of 
credibility, transparency and accountability must be honored and 
applied to the DHS HR options that were introduced by Secretary Ridge 
and Director James in February. Unfortunately, the proposed DHS 
personnel regulations neither honored nor applied the principles that 
employees in the department deserve.
    As the Committee is aware, the public comment period on the 
proposed DHS personnel regulations, closed on March 22, 2004. It is our 
understanding that DHS received over 2,000 comments during the past 
month from DHS employees, Members of Congress, employee representatives 
and the general public. From an initial review of the submitted 
comments, it can be safely said that the vast majority of the comments 
oppose the proposed pay and job classification system for DHS 
personnel.
    The proposed DHS personnel regulations propose to implement a 
radical change to pay and job classification systems for DHS employees, 
and to increase the linkage between pay and performance. However, no 
reliable information exists to show that this system will enhance the 
efficiency of DHS operations and promote homeland security. Indeed, 
most of the key components of the system are not clearly determined in 
the proposed regulations. The proposed regulations consist only of 
broad statements concerning the creation of occupation clusters of 
related positions in the department and the ability of DHS/OPM to 
create a number of ``pay bands'' for each cluster that relates to skill 
level. The ``pay band'' ranges will be set by an extremely complicated 
formula of mission requirements, local labor market conditions, 
availability of funds, and pay adjustments received by other Federal 
employees.
    The proposed pay system lacks the transparency and objectivity of 
the General Schedule. Critical decisions on pay rates for each band, 
annual adjustments to these bands and locality pay supplements and 
adjustments will no longer be made in public forums like the U.S. 
Congress or the Federal Salary Council, where employees can watch the 
process and have the opportunity to influence its outcome. Rather, 
these decisions would now be made behind closed doors by a group of DHS 
managers (sometimes in coordination with OPM) and their consultants.
    If the proposed system is implemented, employees will have no basis 
to accurately predict their salaries from year to year. They will have 
no way of knowing how much of an annual increase they will receive, or 
whether they will receive any annual increase at all, despite having 
met or exceeded all performance expectations identified by the 
Department. The ``pay-for-performance'' element of the proposal will 
pit employees against each other for performance-based increases. 
Making DHS employees compete against each other for pay increases will 
undermine the spirit of cooperation and teamwork needed to keep our 
country safe from terrorists, smugglers, and others who wish to do 
America harm.
    One thing is clear. The proposed pay system will be extremely 
complex and costly to administer. A new bureaucracy will have to be 
created, and it will be dedicated to making the myriad, and yet-to-be 
identified, pay-related decisions that the new system would require.
    In the area of labor relations, NTEU is extremely disappointed by 
the proposed DHS personnel system. Despite the congressional mandate to 
protect an employee's right to collectively bargain, the proposed DHS 
personnel regulations are drafted as such to minimize the influence of 
collective bargaining so as to undermine the statutory right of 
employees to organize and bargain collectively. When Congress included 
provisions in the Homeland Security Act to protect employees' 
collective bargaining rights, Congress could not have intended those 
rights to be gutted as they are in the proposed regulations.
    For example, the proposed regulations eliminate bargaining over 
otherwise negotiable matters that do not significantly affect a 
substantial portion of the bargaining unit, they eliminate a union's 
right to participate in formal discussions between bargaining unit 
employees and managers, and they drastically restrict the situations 
during which an employee may request the presence of a union 
representative during an investigatory examination. In addition, the 
proposed regulations set and change conditions of employment and void 
collectively bargained provisions through the issuance of non-
negotiable departmental regulations, assign authority for resolving 
many labor-management disputes to the Homeland Security Labor Relations 
Board, composed exclusively of members appointed by the Secretary, and 
grant broad new authority to establish an entirely new pay system, and 
to determine each employee's base pay and locality pay, and each 
employee's annual increase in pay, without requiring any bargaining 
with employee representatives.
    The Homeland Security Act required any new human resources system 
for DHS employee ``contemporary.'' Unfortunately, the labor relations 
and performance management proposals are, however, remarkably 
regressive. By proposing to silence front-line employees and the unions 
that represent them, DHS/OPM appear to have decided that employees and 
their representatives can make no contribution to the accomplishment of 
the essential mission of protecting the homeland. This backwards-
thinking approach is at odds with contemporary concepts of labor 
relations.
    In the area of due process for DHS employees the proposed personnel 
regulations make drastic changes. Included in the proposed regulations 
are provisions that bar the Merit Systems Protection Board from 
reducing or otherwise modifying any penalty selected by DHS, which 
would deprive employees of a chance to challenge excessive or 
unreasonable penalties, the proposed regulations eliminate the right of 
a union to submit serious adverse actions imposed against bargaining 
unit employees to an arbitrator, and they reduce an agency's burden of 
proof in adverse actions cases to a standard that would require DHS's 
decisions to be upheld even if they are more likely than not to have 
been improper.
    In addition, the proposed DHS regulations would allow the Secretary 
of Homeland Security to determine an unlimited number of mandatory 
removal offenses or ``deadly sins'' that require mandatory termination 
for DHS personnel, without access to any independent review of the 
charges; the only review would be by an in-house entity. These proposed 
DHS ``deadly sins'' are even more Draconian that the IRS' deadly sins, 
which are subject to independent review and are set by statute, not 
subject to the whim of the current or future DHS Secretaries.
    It is important to note that President Bush supports repealing the 
mandatory termination provisions currently in effect at the IRS and 
legislation drafted by the Administration to do this (H.R. 1528) has 
passed the House with strong bipartisan Congressional, as well as, 
Administration support. The Administration believes that the IRS needs 
more flexibility in this area. Since flexibility has been the primary 
goal of personnel changes at DHS, it is totally inconsistent to 
introduce procedures that take away all discretion by requiring 
mandatory penalties.
    When Congress mandated that DHS employees be treated fairly and 
afforded the protections of due process, and authorized only limited 
changes to current appellate processes, Congress could not have 
envisioned the drastic reductions in employee rights that are in the 
proposed DHS personnel regulations. No evidence shows that current 
employee due process protections or the decisions of an arbitrator or 
the MSPB jeopardize homeland security. While there was support 
expressed in Town Hall meetings and focus groups for speeding up the 
adverse action and appeals process, there was no support for 
drastically altering the process in favor of management or otherwise 
reducing the likelihood of fair and accurate decisions.
    Ideally, a new DHS human resource management system should promote 
esprit-de-corps so as to enhance the effectiveness of the workforce. 
Unfortunately, these proposals fall far short of that ideal. Instead, 
they will result in a demoralized workforce composed of Federal 
employees who feel as if they have been relegated to second-class 
citizenship. This system will encourage experienced employees to seek 
employment elsewhere and will deter qualified candidates from 
considering a career in DHS.
    Thank you for the opportunity to share NTEU's thoughts on a number 
of extremely important issues concerning the Department of Homeland 
Security, its fiscal year 2005 Budget and its front line employees.
                                 ______
                                 

             Prepared Statement of the University of Miami

    Chairman Cochran, Ranking Member Byrd, and distinguished members of 
the Subcommittee, thank you for giving me the opportunity to provide 
testimony on the Disaster Resistant University initiative and to 
request continued funding in the fiscal year 2005 appropriations bill 
of your Subcommittee.
    We very much appreciate the interest of Members of Congress in this 
program. It is a modest program with great benefits.
Request for fiscal year 2005
    We respectfully request the following language in the fiscal year 
2005 Department of Homeland Security Appropriations Bill Emergency 
Preparedness and Response section of the bill under the Predisaster 
Mitigation section.
    The Committee directs Emergency Preparedness and Response (FEMA) to 
continue the Disaster Resistant University Program by providing 
continued support to the pilot universities and those selected in 
fiscal year 2003 and fiscal year 2004 to implement mitigation efforts 
to reduce their vulnerabilities and improve protection of their 
students, employees, and the Federal investment in vital research.

Program Background
    The FEMA Disaster Resistant University (DRU) Initiative was created 
to reduce the potential for large loss of life and hundreds of millions 
of dollars in key Federal research and billions of dollars in damage 
from natural disasters. The University of California at Berkeley was 
the prototype and founding member of the program. In October 2000, FEMA 
selected five additional universities to join Berkeley in the pilot 
phase of the program: the University of Alaska at Fairbanks, University 
of Miami, University of North Carolina at Wilmington, Tulane 
University, and the University of Washington at Seattle. The selected 
universities have two elements in common: a vulnerability to disasters 
and a commitment to improve protection of students, faculty and staff, 
and one of our most valuable assets, intellectual property. The pilot 
program was funded with $700,000 in grants from predisaster mitigation 
funds and the U.S. Fire Administration.

Purpose of the Program
    The purpose of the program is to help the Nation's colleges and 
universities facing the threat of natural disasters and acts of 
terrorism to assess their vulnerabilities and find ways to protect the 
lives of their students, faculty, and staff; their research; and their 
facilities. It will provide a framework and process for other 
universities to do the same.
    The intent of the program was to assist universities by first 
providing a small grant for them to assess their vulnerabilities, 
devise appropriate plans, and set priorities and then to provide grants 
in following years of approximately $500,000 each for the universities 
to take steps to reduce those vulnerabilities.

Need for the Program
    The Federal Government funds $19.4 billion annually in university 
research, according to the National Science Foundation statistics in 
2001, the latest year available. This Federal investment in the vital 
intellectual property of the Nation should be protected.
    In addition, universities are critical to the economic health of 
their surrounding communities. Their ability to resume operations 
quickly following a disaster greatly speeds the recovery of the entire 
community. For example, the University of Miami is the 3rd largest 
employer in Miami-Dade County and has a $1.9 billion a year impact on 
the community; the University of Washington is the 3rd largest employer 
in the State of Washington and has a $3.4 billion impact; the 
University of North Carolina at Wilmington is the 3rd largest employer 
in the area and is a $400 million annual benefit to an eight county 
area; the University of California at Berkeley is the 3th largest 
employer in the Bay area and generates $1.4 billion annually in the Bay 
area; Tulane University is the largest employer in Orleans Parish and 
the 5th largest in Louisiana with a $1.5 billion gross impact on New 
Orleans; and the University of Alaska at Fairbanks is the largest 
civilian employer in the Tanana Valley. In addition, many universities 
operate medical schools which provide essential clinical services to 
the residents of their communities and adjacent areas.
    Many recent events underscore the need for the program: the loss of 
many years of research at the Texas Medical Center as result of 
flooding from Tropical Storm Allison, the earthquake damage to the 
University of California at Northridge and the University of California 
at Los Angeles, the facility damage and loss of life at the University 
of Maryland as result of a tornado, hurricane damage to the University 
of North Carolina at Wilmington, the earthquake damage to the 
University of Washington at Seattle, and the declaration by the FBI 
that our universities are ``soft'' targets for terrorists.

Status of the Program
    On December 31, 2003, FEMA published a Notice of Funds Availability 
(NOFA) for grant applications. As directed by Congress, $500,000 is to 
be available to the six existing DRUs and $100,000 each is to be 
available for six new ones to start the process. The funds are from the 
PreDisaster Mitigation Fund.
    The applications were due to FEMA regions on March 1, 2004. The 
FEMA regions have completed preliminary reviews and forwarded the 
applications to FEMA headquarters. Panels will be reviewing the 
applications in late April and awards are expected in early June.
    Forty-four universities and four consortia applied. Applications 
were received from six Historic Black Colleges and Universities (HBCU) 
and one tribal school. Applications were received from universities 
located in nine of the ten FEMA regions.
    Although no additional funding has been made available since the 
original small grants in 2000, great progress has been made by the 
universities with the modest Federal investment. Participation in the 
DRU brought high level commitment and a framework for disaster planning 
and mitigation activities that helped universities focus and enhance 
efforts to protect their students, faculty, staff, vital research, and 
facilities.
    Each university has made significant improvements in developing 
awareness campaigns on campus; assessing their risks, vulnerabilities, 
and mitigation options, prioritizing and implementing some of the 
mitigation options; updating emergency operations plans; and developing 
and implementing plans for business continuity. The universities have 
improved disaster resistant design specifications for buildings and 
their contents, incorporated disaster resistance into campus master 
planning, and partnered more closely with governmental and private 
entities.
    These six pilot universities are making strong efforts to protect 
their over 120,000 students, over 60,000 employees, 1,550 buildings 
valued at over $11,820,458,000, and $1,600,710,000 in annual research.
    The six participating Disaster Resistant Universities look forward 
to continuing their progress and to mentoring the six new universities 
which FEMA will be selecting soon.
    Included in the applications from the six pilots for the fiscal 
year 2003 funding were projects such as protecting windows, tying down 
rooftop mechanical equipment, structural bracing for hurricane damage 
protection for buildings housing major research projects; seismic 
retrofit of the university police Department 9-1-1 dispatch center and 
emergency operations center; developing emergency plans for campus 
special needs populations; seismic evaluation of the power plant vital 
for research facilities; and improving nonstructural hazard mitigation 
in university laboratories, increasing data backup, and expanding 
business resumption planning into departments and research units.

Streamlining the Process
    We are grateful that the process of getting out the fiscal year 
2003 funding is underway; however, the new application process for the 
fiscal year 2003 funds was very time consuming. Some of the information 
required seemed much more appropriate for communities than a 
university. One pilot university estimated it took 200 hours of staff 
time to prepare the application and several spent more than 150 hours. 
One of the universities applying as a new selection for a $100,000 
grant devoted 150 hours of staff time. In addition the process is time 
consuming for State and local emergency management officials. We would 
like to work with FEMA on suggestions for streamlining the process 
while still maintaining high quality applications.

Summary of Congressional Interest
    We very much appreciate the support Congress has given this 
program.

Fiscal year 2002
    The Conference Report on the VA, HUD and Independent Agencies 
Appropriations bill for 2002 (House Report 107-272 ) contained the 
following language:
    The conferees believe that many of the Nation's universities are 
vulnerable to disaster and urge FEMA to continue its Disaster Resistant 
University program and expand the scope to include safe-guarding 
university assets from acts of terrorism.

Fiscal year 2003
    The Conference Report on the fiscal year 2003 Omnibus bill in the 
FEMA section of the VA, HUD and Independent Agencies stated the 
following:
    The conferees are in agreement that FEMA should continue the 
Disaster Resistant University program and direct FEMA to carry out the 
direction contained in House Report 107-740.
    House Report 107-740 stated the following:
    Finally, the Committee notes that in September of 2000 FEMA 
selected five universities to join the University of California at 
Berkeley in the pilot phase of the Disaster Resistant University 
program: University of Alaska/Fairbanks, University of Miami, 
University of North Carolina/Wilmington, Tulane University, and 
University of Washington/Seattle. The purpose of the program is to help 
the Nation's colleges and universities facing the threat of natural 
disasters to assess their vulnerabilities and find ways to protect 
their research, facilities and the lives of students, faculty and 
staff. The Committee directs FEMA to continue the Disaster Resistant 
University Program with grants of $500,000 to each of the six pilot 
Disaster Resistant Universities and $100,000 each to at least six 
additional universities, including at least one HBCU, to join the 
program.
Fiscal year 2004
    The Senate Report on the Department of Homeland Security 
Appropriations bill (S. Report 108-86) included the following language 
under the National Pre-Disaster Mitigation Fund which was funded at 
$150,000,000.
    The Committee encourages the Department to continue the existing 
Disaster Resistant University program at the fiscal year 2003 level.
    The House receded to the Senate in the conference agreement.
    We again thank you for the opportunity to provide written comment 
on the need for continued funding of this important program. We would 
welcome the opportunity to provide additional information or to discuss 
the program further with your staff.
                                 ______
                                 

  Prepared Statement of the Upper Mississippi River Basin Association

    The Upper Mississippi River Basin Association (UMRBA) is the 
organization created in 1981 by the Governors of Illinois, Iowa, 
Minnesota, Missouri, and Wisconsin to serve as a forum for coordinating 
the five States' river-related programs and policies and for 
collaborating with Federal agencies on regional water resource issues. 
As such, the UMRBA has an interest in the budgets for the U.S. Coast 
Guard and the Federal Emergency Management Agency (FEMA).
    Both the Coast Guard and the FEMA have vital functions specifically 
related to homeland security that must be adequately funded. But both 
also have other traditional missions that are equally important to 
public health and safety, economic well-being, and environmental 
protection. For the Coast Guard, these include activities such as aids 
to navigation, vessel and facility inspections, emergency response, and 
mariner licensing. For FEMA, key traditional missions include the 
National Flood Insurance Program, flood map modernization, hazard 
mitigation, and response to floods and other natural disasters. Nowhere 
are these services more important than on the Upper Mississippi River 
System, which supports a vital link in the inland waterway 
transportation system, some of the Nation's most productive 
agricultural land, population centers ranging from small towns to major 
metropolitan areas, and a nationally significant ecosystem.

                              COAST GUARD

Operating Expenses
    A continuing priority for the UMRBA is the Coast Guard's Operating 
Expenses account. The President's fiscal year 2005 budget proposal 
includes $5.173 billion for this account, an increase of almost 10 
percent from the fiscal year 2004 enacted level. However, this net 
increase of $455 million for Operating Expenses is more than fully 
consumed by specific increases tied to implementation of the Maritime 
Transportation Security Act (MTSA); increased personnel costs; and 
operating costs for new vessels, aircraft, and facilities related to 
the Coast Guard's saltwater responsibilities. These initiatives are 
important in their own right and will benefit a range of Coast Guard 
missions. However, it is also true that the Coast Guard's non-security 
missions will be under continued strain as the inflation-adjusted 
resources for these missions remain static or shrink.
    When the Department of Homeland Security was formed, the UMRBA 
strongly supported the Coast Guard's stated objective of sustaining 
traditional missions near their pre-9/11 levels. These traditional 
missions are critical to the safe, efficient operation of the Upper 
Mississippi River and the rest of the inland river system. Under these 
mission areas, the Coast Guard maintains navigation channel markers, 
regulates a wide range of commercial vessels in the interest of crew 
and public safety, and responds to spills and other incidents. The 
beneficiaries include not only commercial vessel operators, but also 
recreational boaters; farmers and others who ship materials by barge; 
and the region's citizens, who benefit enormously from the river as a 
nationally significant economic and environmental resource.
    Even prior to September 11, recent years had brought a number of 
changes to the way the Coast Guard operates on the inland river system, 
including elimination of the Second District; closure of the Director 
of Western Rivers Office; decommissioning the Sumac, which was the 
largest buoy tender on the Upper Mississippi River; and staff 
reductions. While the States understand the need for efficiency, the 
cumulative impacts of these changes must be carefully monitored, 
particularly in light of the increased demands that we are now placing 
on the personnel and assets that remain in the region. The UMRBA is 
quite concerned that staff reductions and resource constraints have 
combined to impair the Coast Guard's ability to serve as an effective, 
proactive partner.
    Specifically, increased security demands have reduced the staff 
assigned to vessel inspections and limited the Coast Guard's 
investigation of reported spills. Sending a single person to conduct 
vessel inspections reduces the rigor of those inspections, and, in a 
worst case scenario, potentially puts the inspector at risk. Similarly, 
electing not to respond to reports of small spills means some of these 
spills will go uninvestigated and puts increased demands on local 
officials, who do not have the Coast Guard's expertise or resources. 
Moreover, it could result in costly delays should a spill turn out to 
be larger than first reported, an all-too-common occurrence. Temporary 
adjustments initially made to accommodate immediate security needs are 
now evolving into long term standard operating procedures. While 
everyone recognizes the need to adjust to our new security environment, 
it is essential for the Coast Guard to retain the capacity to perform 
its traditional missions on the Upper Mississippi River. Toward that 
end, the UMRBA supports the President's fiscal year 2005 budget request 
for the Coast Guard's Operating Expenses account, but urges Congress to 
ensure that sufficient resources from within this account are allocated 
to the Coast Guard's inland river work.

Research, Development, Testing, and Evaluation
    Through its Research, Development, Testing, and Evaluation (RDT&E) 
program, the Coast Guard conducts cutting edge research in several 
critical areas, including oil spill prevention and response, risk 
assessment, and mariner safety. Of particular note, researchers at the 
Coast Guard's Groton, Connecticut Research and Development Center have 
made invaluable contributions to state-of-the-art fast water spill 
response, in situ burning, and human error reduction. However, the 
President is now proposing to shift the Coast Guard's RDT&E funding to 
the Department of Homeland Security's Science and Technology (S&T) 
Directorate. This proposal represents precisely the kind of diminution 
of the Coast Guard's non-security missions with which the UMRBA and 
others have repeatedly expressed concern. Research on innovative oil 
spill recovery equipment or new methods for combating crew fatigue will 
simply be lost in the department-wide S&T Directorate, with its 
overwhelming focus on homeland security issues. Moreover, the 
President's proposal appears to be inconsistent with Section 888 of the 
Homeland Security Act, which calls for ``the authorities, functions, 
and capabilities of the Coast Guard to perform its missions . . . [to] 
be maintained intact.'' The UMRBA urges Congress to provide adequate 
and direct funding to the Coast Guard's multi-mission RDT&E program in 
fiscal year 2005.

Reserve Training
    The President is requesting $117 million for Coast Guard Reserve 
Training in fiscal year 2005. The UMRBA States are keenly aware of the 
importance of the reserve forces. During major flood events on the 
inland rivers, reservists have consistently provided exemplary service, 
augmenting the Coast Guard's capabilities and helping to protect public 
health and safety. More recently, many reservists have been called to 
active duty, enabling the Coast Guard to meet many new security-related 
demands. On the inland rivers, this has included increased patrols near 
critical facilities and development of security plans for key inland 
ports. The UMRBA urges Congress to fund Reserve Training at $117 
million in fiscal year 2005, thereby helping to maintain a Coast Guard 
reserve that can effectively execute both homeland security- and 
natural disaster-related missions.

Boating Safety Grants
    The Coast Guard's boating safety grants to the States have a proven 
record of success. The Upper Mississippi is a river where all types of 
recreational craft routinely operate in the vicinity of 15-barge tows, 
making boating safety all the more important. As levels of both 
recreational and commercial traffic continue to grow, so too does the 
potential for user conflicts. This is particularly true with major 
events like the Grand Excursion 2004, during which flotillas of boaters 
will retrace President Millard Fillmore's 1854 steamboat journey from 
Rock Island, Illinois to the Twin Cities.
    Boat safety training and law enforcement are key elements of 
prevention. However, the future of this successful grants program is 
uncertain. Following the pattern of recent years, the President has 
requested $59 million in fiscal year 2005 funding for boating safety 
grants to the States. This is the amount historically authorized 
without annual appropriation from the Boat Safety Account, which is 
funded by a tax on fuel for recreational motor boats. Successive 
Administrations have not typically exercised their option to request an 
additional $13 million in annual appropriations for the grants. 
However, the authority for the funding from the Boat Safety Account has 
expired and must be extended if the program is to continue in fiscal 
year 2005. Such a provision is currently being considered as part of 
the pending Highway Bill. The UMRBA urges prompt reauthorization of the 
Boating Safety Program, and funding of this important work at $72 
million annually.

    FEDERAL EMERGENCY MANAGEMENT AGENCY (EMERGENCY PREPAREDNESS AND 
                         RESPONSE DIRECTORATE)

Hazard Mitigation
    UMRBA is particularly interested in FEMA programs that help 
mitigate future flood hazards. Mitigation, which is the ongoing effort 
to reduce or eliminate the impact of disasters like floods, can include 
measures such as relocating homes or community facilities off the 
floodplain, elevating structures, and practicing sound land use 
planning. Mitigation planning and projects are essential to reducing 
the Nation's future disaster assistance costs. Given the importance of 
mitigation, UMRBA supports the Pre-Disaster Mitigation (PDM) grant 
program, which was created in fiscal year 2003 and for which the 
President is requesting $150 million in fiscal year 2005. While the PDM 
grant program is still relatively new, it holds promise for enhancing 
communities' ability to prevent future damages, particularly in areas 
that have not experienced a major disaster and thus have not had access 
to post-disaster mitigation assistance through the Disaster Relief 
Fund. In addition, pre-disaster mitigation assistance is an effective 
means of meeting the ongoing need in all communities to plan for future 
floods and reduce their vulnerability before the next flood disaster.
    FEMA is still in the process of awarding fiscal year 2003 grant 
funds, and fiscal year 2004 grant guidance has not yet been released. 
In fiscal year 2003, each State in the country was provided $248,375 
for planning grants. The balance of the $150 million appropriated in 
fiscal year 2003 is being allocated nationally as competitive grants, 
in three phases. While fiscal year 2003 competitive grants have not yet 
been awarded, the review process has concluded. A total of nearly $6 
million in PDM competitive grants will likely be awarded, from fiscal 
year 2003 funds, to communities throughout the five States of the Upper 
Mississippi River Basin. Although the PDM grant program has gotten off 
to a slow start, it holds promise. Thus, UMRBA supports the President's 
fiscal year 2005 funding request of $150 million for the PDM program.

Flood Map Modernization
    Flood maps are not only used to determine risk-based National Flood 
Insurance Program premium rates, but also provide the basis for local 
regulation of flood hazard areas and for State and local disaster 
response planning. However, most flood maps are over 15 years old and 
are rapidly becoming obsolete. Many flood maps are outdated by the 
effects of land use changes in the watersheds. When outdated maps 
underestimate flood depths, it can often lead to floodplain development 
in high risk areas. It is therefore important that flood maps be 
updated on an ongoing basis and in a timely way.
    The President's fiscal year 2005 budget proposes $200 million for 
FEMA's Flood Map Modernization program. While funding for flood maps 
has increased substantially since the Map Modernization initiative 
began in fiscal year 2003, there are growing concerns about the 
adequacy of the original time and cost estimates. For instance, 
producing updated and accurate maps often requires that new studies be 
conducted. However, the existing map modernization budget is only 
sufficient to fund actual mapping costs and will not adequately cover 
the costs of necessary associated tasks, such as new flood elevation 
studies or levee certifications. In fiscal year 2004, FEMA Region 5 was 
allocated $12 million for map modernization and Region 7 was allocated 
$7.28 million. Given such constrained funding and the fact that mapping 
needs are being prioritized based on population, rather than flood risk 
or need, it is not clear when relatively sparsely populated counties 
along the Mississippi River will be mapped. Ironically, the Federal 
Government, through the U.S. Army Corps of Engineers, recently spent 
approximately $17 million to develop new flood profiles for the Upper 
Mississippi and Lower Missouri Rivers. Unfortunately this updated 
information cannot be fully utilized until sufficient funding is made 
available to modernize and digitize the flood maps for river 
communities. Thus, the UMRBA urges Congress to provide adequate funding 
for map modernization, including sufficient funding to develop new maps 
for the Upper Mississippi and Lower Missouri Rivers based on the new 
flood profiles.

</pre></body></html>
